<html>
<title> - NOMINATIONS TO THE DEPARTMENT OF COMMERCE, FEDERAL MARITIME COMMISSION, AND THE METROPOLITAN WASHINGTON AIRPORTS AUTHORITY</title>
<body><pre>[Senate Hearing 110-1116]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1116
 
                     NOMINATIONS TO THE DEPARTMENT
                     OF COMMERCE, FEDERAL MARITIME
                    COMMISSION, AND THE METROPOLITAN
                     WASHINGTON AIRPORTS AUTHORITY

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 23, 2007

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
73-668                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9ef9eef1defdebedeaf6fbf2eeb0fdf1f3b0">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 23, 2007.................................     1
Statement of Senator Inouye......................................     1
    Prepared statement...........................................     2
Statement of Senator Nelson......................................     3
Statement of Senator Stevens.....................................     3
    Prepared statement...........................................     3

                               Witnesses

Anderson, Hon. A. Paul, Renominated to be Commissioner and 
  Chairman-Designate, Federal Maritime Commission................    35
    Prepared statement...........................................    36
    Biographical information.....................................    37
Brown, Hon. Robert Clarke, Renominated to be a Member, Board of 
  Directors, Metropolitan Washington Airports Authority (MWAA)...     6
    Prepared statement...........................................     7
    Biographical information.....................................     8
    Letter, dated October 29, 2007, to Hon. Daniel K. Inouye and 
      Hon. Ted Stevens...........................................    15
Brown, Hon. Sherrod, U.S. Senator from Ohio......................     4
Kress, Carl B., Nominated to be Commissioner, Federal Maritime 
  Commission.....................................................    27
    Prepared statement...........................................    28
    Biographical information.....................................    29
Voinovich, Hon. George V., U.S. Senator from Ohio................     4
Zinser, Todd J., Nominated to be Inspector General, U.S. 
  Department of Commerce.........................................    18
    Prepared statement...........................................    20
    Biographical information.....................................    21

                                Appendix

Response to written question submitted to Carl B. Kress by:
    Hon. Barbara Boxer...........................................    51
    Hon. Daniel K. Inouye........................................    49


                    NOMINATIONS TO THE DEPARTMENT OF
                       COMMERCE, FEDERAL MARITIME
                    COMMISSION, AND THE METROPOLITAN
                     WASHINGTON AIRPORTS AUTHORITY

                              ----------                              


                       TUESDAY, OCTOBER 23, 2007

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
SR-253, Russell Senate Office Building, Hon. Daniel K. Inouye, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. Public service is a noble calling and we 
thank those nominees who are willing to spend their careers in 
government, as well as those who lend their expertise, garnered 
from a successful career in the private sector, to public 
enterprises.
    The Inspector General for the Department of Commerce is 
charged with the oversight of a wide array of programs, 
including conservation and management of ocean resources, trade 
promotion, and enforcement and spectrum policy. It is vital 
that the Inspector General remain above politics. The 
independence of the Department of Commerce Inspector General 
and all the Inspectors General must be without doubt. The 
Congress and this Committee will be depending on this office to 
both ferret out waste, fraud, and abuse, and to develop policy 
and programs across all of the Departments' diverse portfolio 
of programs.
    Mr. Zinser, this job will require significant commitment, 
dedication, and a constant pursuit of the facts. I hope your 
own career in the Department of Transportation will serve you 
well and set an example for an office that has been in turmoil 
for some time.
    The Federal Maritime Commission has been tasked with a very 
important mission of ensuring that U.S. international trade is 
open to all nations on a fair and equitable basis. As U.S. 
global trade negotiations continue to expand, we will become 
even more dependent on maritime commerce for ``just-in-time'' 
delivery of consumer goods and components.
    The FMC must remain diligent in monitoring the shipping 
practices of our trading partners, to ensure fairness, and to 
protect American consumers from collusion and anticompetitive 
behavior. And so, we welcome the testimony of Messrs. Paul 
Anderson and Carl Kress, who have been nominated to serve as 
Commissioners.
    Mr. Robert Clarke Brown is a current Member of the Board of 
Directors of the Metropolitan Washington Airports Authority 
(MWAA). As such, he is one of primary individuals responsible 
for the day-to-day operations, finances, and effectiveness of 
two of the major airports serving this region. Mr. Brown has 
been reappointed to the MWAA Board, and can share with the 
Committee and the Board, his experience of the authority as 
MWAA prepares to meet the challenges that face the Washington 
region's airports in the coming years.
    Today, we will examine these four nominees credentials and 
views, and we thank you again for your commitment to public 
service. And should you be confirmed, we look forward to 
working with each of you.
    And may I now recognize the Vice Chairman.
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii

    Public service is a noble calling, and we thank those nominees who 
are willing to spend their careers in government as well as those who 
lend their expertise garnered from a successful career in the private 
sector to public enterprises.
    The Inspector General for the Department of Commerce is charged 
with the oversight of a wide array of programs, including conservation 
and management of ocean resources, trade promotion and enforcement, and 
spectrum policy.
    It is vital that the Inspector General remain above politics. The 
independence of the Department of Commerce Inspector General, and all 
Inspectors General, must be without doubt. Congress and this Committee 
will be depending on this office to both ferret out waste, fraud, and 
abuse, and to develop policy and programs across all of the 
Department's diverse portfolio of programs.
    Mr. Zinser, this job will require significant commitment, 
dedication, and a constant pursuit of the facts. I hope your long 
career at the Department of Transportation's Office of Inspector 
General will serve you well in setting the example at an office that 
has been in turmoil for some time.
    The Federal Maritime Commission (FMC) has been tasked with the very 
important mission of ensuring that U.S. international trade is open to 
all nations on fair and equitable terms.
    As U.S. global trade continues to expand, we will become even more 
dependent on maritime commerce for ``just-in-time'' delivery of 
consumer goods and manufacturing components. The FMC must remain 
diligent in monitoring the shipping practices of our trading partners 
to ensure fairness and to protect American consumers from collusion and 
anti-competitive behavior. We welcome the testimony of Mr. Paul 
Anderson, and Mr. Carl Kress, who have been nominated to serve as 
Commissioners.
    Recently, issues have been brought to my attention concerning the 
management and operations of the FMC. In addition to post-hearing 
questions, the Committee intends to hold an oversight hearing on the 
FMC in the near future. I am hopeful the sitting Commissioners will 
make themselves available to testify before the Committee at that time.
    Mr. Robert Clarke Brown is a current Member of the Board of 
Directors of the Metropolitan Washington Airports Authority (MWAA). As 
such, he is one of the primary individuals responsible for the day-to-
day operations, finances, and effectiveness of two of the major 
airports serving this region. Mr. Brown is being reappointed to the 
MWAA Board and can share with the Committee and the Board his 
experience at the Authority as MWAA prepares to meet the challenges 
that face the Washington region's airports in the coming years.
    Today we will examine these four nominees' credentials and views. 
Thank you again for your commitment to public service. Should you be 
confirmed, I look forward to working with each of you.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Thank you very much, Mr. Chairman. I'd ask 
my statement be printed in the record after yours, and state to 
Mr. Brown that I served on that Board at one time. I know it's 
a chore, so we welcome you and welcome your decision to serve 
for a second term.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Stevens follows:]

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska

    Mr. Chairman, thank you for holding today's hearing. These 
individuals have been selected to fulfill vital roles within their 
organizations and I thank them for their willingness to serve.
    The Metropolitan Washington Airports Authority has a critical 
responsibility to the millions of travelers who pass through Washington 
Dulles International and Ronald Reagan Washington National Airports 
each year, and it is essential that these two airports be run 
efficiently. I was once a Member of this Board so I understand the 
challenges it faces. Mr. Brown, you have already served a number of 
years on the Board and I appreciate your continued service.
    The Inspector General's office is charged with conducting 
independent and objective investigations within a department and it is 
crucial that this position be filled by an individual who remains 
honest and impartial throughout the investigative and auditing process. 
I look forward to hearing Mr. Zinser's vision for the IG's office at 
the Department of Commerce.
    The maritime industry is vital to U.S. commerce. Protecting ocean 
borne transportation and the security of our ports is of the utmost 
importance. I welcome our two nominees for the Federal Maritime 
Commission and look forward to hearing from them.

    The Chairman. Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Bill Nelson. Mr. Chairman, it's my privilege, also, 
to be here on behalf of Paul Anderson, who is currently serving 
as a Commissioner on the Federal Maritime Commission, and he 
has been reappointed by the President for another term as 
Commissioner, and designated as the Chairman. And, he has a 
long experience in the maritime sector, having been with one of 
the national marine industries. It's Hvide Marine, it's a 
maritime support and transportation business. It's located in 
Florida.
    And then, he further has been with one of our major 
importers, JM Family Enterprises, a diversified automobile 
business headquartered in Florida. He's had experience in 
government at all levels, local, state, and Federal. And he's 
been on the Commission now for 4 years, so he has tremendous 
experience there. His experience goes back to your former 
colleague, Senator Hawkins, where he was a Special Assistant to 
her.
    And so, because of his community involvement, his extensive 
public service to the community and to our state, and now in 
the national arena, having been a Member for 4 years, I'm here 
to support and speak for his renomination.
    The Chairman. Thank you very much, Senator.
    And now, it's my high privilege and honor to present two of 
our most distinguished Senators from the State of Ohio. The 
first, the Honorable Sherrod Brown and the Honorable George 
Voinovich. Welcome gentlemen.
    May I recognize Senator Voinovich first.

            STATEMENT OF HON. GEORGE V. VOINOVICH, 
                     U.S. SENATOR FROM OHIO

    Senator Voinovich. I thank you, Mr. Chairman.
    I want to thank you for allowing me to speak today on 
behalf of Robert Clarke Brown who the President has nominated 
for reappointment to the Metropolitan Washington Airports 
Authority.
    He has had a diverse career, spanning both the public and 
private sectors. He's a former investment banker and a U.S. 
Department of Transportation capital markets advisor. His 
association with the Airports Authority dates back a decade 
and, in that time, he has chaired both the Finance Committee 
and the Strategic Development Committee.
    Mr. Chairman, as the now Ranking Member of the Oversight of 
Government Management, the Federal workforce, and the District 
of Columbia Subcommittee of the Homeland Security and 
Governmental Affairs Committee, we have worked in the last 8 
years to try to make sure that we have the right people with 
the right knowledge and skills at the right place at the right 
time. And we are fortunate that Mr. Brown is continuing his 
interest in this position.
    And I must say, that it's not surprising, because we all 
know he shares a connection with our fellow colleague, Senator 
Sherrod Brown, the junior Senator from Ohio. They're brothers.
    And even though Senator Brown and I wear different party 
labels, we work together to do what we think is in the best 
interest of Ohio and in the best interest of our country. And 
I'm honored that Sherrod has asked me to participate in this 
confirmation. I think that Mr. Brown's 10 years of dedicated 
service to the Airports Authority speak for itself. And I 
really look forward to this Committee's swift action on his 
nomination.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator.
    Senator Brown?

               STATEMENT OF HON. SHERROD BROWN, 
                     U.S. SENATOR FROM OHIO

    Senator Brown. Thank you, Mr. Chairman, Vice Chairman 
Stevens, and Senator Nelson. Thank you.
    And then special thanks to Senator Voinovich. Senator 
Voinovich, as you may know, is the first Ohioan in 40 years to 
have served both as Governor and as Senator. And the other 
Ohioan that did that some 40 plus years ago, also served as 
Mayor of Cleveland, Governor of Ohio, and United States Senator 
in that order, as Senator Voinovich has. And he was Honorable 
Frank J. Lausche, a Democrat, who was a mentor of sorts, I 
think, for Senator Voinovich. So I thank him for that.
    And Mr. Chairman, I thank you for your consideration. I'm 
thrilled to be here on behalf of my brother. I actually 
appeared in front of this Committee when I was in the House of 
Representatives, a decade ago, at Bob, my brother's first 
confirmation. And, it was a day that I showed up a bit rumpled 
and tired and unshaven. The House had been in session all 
night, and I came over here at 9:30 in the morning when Senator 
McCain was chairing the Committee.
    And I remember saying at that time, as a House member, that 
I apologize for the way I look, but that the House of 
Representatives obviously worked a good deal harder than the 
Senate. And a decade of public service since then, and the 
wisdom I've accrued from that decade of service, makes me 
realize I was wrong and that the Senate actually works 
significantly harder than the House. So, I appreciate that.
    [Laughter.]
    Senator Brown. I want to first introduce my family members 
who are here. First Bob, obviously. My mother Emily, who lives 
in Mansfield, Ohio. My brother Charlie, his wife Ann, Bob's 
wife, Katherine, who is over here. And my niece, Marcia Grace. 
And Marcia Grace, 10 years ago when I was here, was actually 
here in a stroller. So she is now a young adult. So, we're all 
thrilled to have her here.
    I think I'm well-situated, briefly Mr. Chairman, I'm well-
situated to speak to this nominee's qualifications. I don't 
know how many classes in high school I took, where the teacher 
told me how smart my older brother was and how well he had 
done. It has gotten a little old, frankly, but with the passage 
of 40 years, I think I can start to get over it.
    As--and my mother, who is here, as I said, taught me that 
boasting, taught Bob and I that boasting is impolite, but 
nothing prevents me from bragging about my brother. He has been 
an outstanding public servant. He has done outstanding work, 
both in the private sector and in volunteer, for all intents 
and purposes, volunteer jobs like the Airports Authority. He 
excelled academically in high school, college, law school, 
graduate school. He has excelled as a professional. He has 
excelled in both the public sector and the private sector.
    Senator Voinovich talked about many of his qualifications. 
He now is the Treasurer of one America's great universities, 
Case Western Reserve University in Cleveland. And it's my 
pleasure to ask this Committee to consider, with fairness, as I 
know you will, Mr. Chairman--my brother's nomination, Robert 
Clarke Brown.
    Thank you very much.
    The Chairman. Thank you very much, Senator Brown.
    It's always moving to have a brother speak highly of his 
brother. He didn't beat you up, did he?
    [Laughter.]
    Senator Brown. Yes, he did, he did. Certain family secrets 
remain family secrets.
    [Laughter.]
    The Chairman. In honor of the introduction, may I call 
upon, out of order, Mr. Robert Clarke Brown, Member of the 
Board of Directors-Designate, Metropolitan Washington Airports 
Authority?
    Welcome, Mr. Brown.

             STATEMENT OF HON. ROBERT CLARKE BROWN,

        RENOMINATED TO BE A MEMBER, BOARD OF DIRECTORS,

       METROPOLITAN WASHINGTON AIRPORTS AUTHORITY (MWAA)

    Mr. Brown. Thank you, Mr. Chairman.
    I'm Robert Clarke Brown of Ohio. I appreciate this 
opportunity to appear before you, in support of my nomination 
by the President for reappointment to the Metropolitan 
Washington Airports Authority, the operator of the two 
principle airports serving our Nation's capitol.
    And Senator Stevens, I very much appreciate your being here 
as well today, and recognize very much your many years of 
contributions to our Nation's transportation system, including, 
as you mentioned, this--this Authority, which as, really I 
think, one of Congress's great creations and contributions to 
our regional transportation system.
    Mr. Chairman, I--I want to first express my thanks to my 
brother Sherrod, for being here today on my behalf. I will note 
for the record, Mr. Chairman, as you probably gathered from his 
remarks, he is my baby brother. But I also want to say that I 
don't think there are any big brothers anywhere in America that 
are prouder of their little brother than I am of Sherrod and 
all he's accomplished, and all he has done for the people of 
Ohio and the service he has rendered to our Nation and will 
render as a United States Senator.
    And Senator Voinovich as well, I want to say how much I 
appreciate his also being here for me today. He has been a 
public servant in Ohio for decades and, as both--as was 
mentioned, as Mayor, as Governor, and now as our senior 
Senator. And, as a Buckeye, I want to thank him for many years 
of wonderful service to my home state.
    You heard from Sherrod, that I am accompanied today by many 
members of my family. It's a--it is a bit of a family affair. 
My daughter Marcia, is a--is a fifth grader. She's playing 
hooky today, but I assure you, Mr. Chairman, she'll be back 
hitting the books tonight when we get home and preparing for 
her lessons tomorrow.
    I am privileged to have been associated with the Airports 
Authority in various capacities for more than a decade, a 
period in our Nation's history which has been both exciting for 
the Authority's airports and challenging for all of U.S. 
aviation.
    At the beginning of that time, Washington National Airport 
was the larger and more important of the Authority's two 
airports. But it now has been far surpassed by Washington 
Dulles International Airport, and the Airports Authority has 
moved beyond its original role as solely an airports operator, 
emerging as an important player in the Washington region's 
multi-modal transportation system, something I have a little 
more to say about in a moment.
    Dulles Airport was established half a century ago, by a 
visionary Federal Government, which anticipated the Capitol 
region's future demand for air transportation and sited an 
airport which would have ample capacity to grow as that demand 
materialized. The past decade has seen that vision realized, as 
Dulles has become both an important domestic carrier, with 
frequent service by both traditional and low-cost carriers, and 
a major international gateway, serving destinations in Asia, 
Africa, Europe, and South America.
    To support that growth in air service, the Authority 
undertook, at the turn of the century, a multi-billion dollar 
expansion of Dulles. Though that expansion was slowed in the 
years immediately after September 11, 2001, we are now well 
into it. When completed, Dulles will have an additional air-
side and land-side capacity, as well as an underground, 
automated people mover system, all of which will bring greater, 
more convenient air service to the Capitol region's ever 
increasing numbers of air travelers.
    Two years ago, the Commonwealth of Virginia was considering 
a number of proposals to privatize the Dulles Toll Road, a road 
built and operated by Virginia, but lying in the Authority's 
right-of-way. The Authority proposed that, in lieu of 
privatization, it take over operation of the toll road and use 
the excess revenue from the toll road to extend the regional 
Metrorail system to Dulles Airport. I am sure I speak for all 
of my colleagues on the Airports Authority Board, Mr. Chairman, 
when I tell you that I am proud the Governor of Virginia placed 
his confidence in the Authority by accepting our proposal, and 
asking us, the Airports Authority, to take over responsibility 
for building Metrorail to Dulles.
    The magnitude of this undertaking is substantial. The 
Dulles rail project will be in upwards of $5 billion, one of 
the largest investments in the Washington metropolitan region's 
transportation system during the next decade.
    Complimenting existing ground access to Dulles with the 
rail line, is a critically important service improvement for 
our passengers and for the thousands of people who work at 
Dulles Airport. Increasingly, the world's leading international 
airports offer their customers airport access through rail 
service. And the Authority believes that Dulles, the 
international airport for the Capitol of the United States of 
America, should join their ranks.
    With the completion of the Dulles rail line, both of the 
Authority's airports will have convenient rail service, 
accessible directly from the airport terminals. We know that 
particularly in the Washington area market, customers want rail 
service to the airport. The percentage of National Airport's 
customers who access the airport by rail is the highest of any 
U.S. airport.
    Mr. Chairman, I have a written statement I'd like to submit 
for the record. That concludes my opening remarks, and I look 
forward to responding to your questions.
    [The prepared statement and biographical information of Mr. 
Brown follow:]

  Prepared Statement of Hon. Robert Clarke Brown, Renominated to be a 
Member, Board of Directors, Metropolitan Washington Airports Authority 
                                 (MWAA)

    Mr. Chairman and members of the Committee:

    I am Robert Clarke Brown of Ohio. I appreciate this opportunity to 
appear before you in support of my nomination by the President for re-
appointment to the Metropolitan Washington Airports Authority.
    I am privileged to have been associated with the Airports Authority 
in various capacities for more than a decade, a period in our Nation's 
history which has been both exciting for the Authority's airports and 
challenging for all of U.S. aviation. At the beginning of that time, 
Washington National Airport was the larger of the Authority's two 
airports; but it now has been far surpassed by Washington Dulles 
International Airport. And the Airports Authority has moved beyond its 
original role as solely an airports operator, emerging as an important 
player in the Washington region's multi-modal transportation system.
    Dulles Airport was established half a century ago by a visionary 
Federal Government which anticipated the capital region's future demand 
for air transportation and sited an airport which would have ample 
capacity to grow as that demand materialized. The past decade has seen 
that vision realized, as Dulles has become both an important domestic 
airport, with frequent service by both traditional and low-cost 
carriers, and a major international gateway, serving destinations in 
Asia, Africa, Europe and South America. To support that growth in air 
service, the Authority undertook at the turn of the century a multi-
billion dollar expansion of Dulles. Though that expansion was slowed in 
the years immediately after September 11, 2001, we are now well into 
it. When completed, Dulles will have additional air-side and land-side 
capacity, as well as an underground automated people mover system, all 
of which will bring greater, more convenient air service to the 
region's ever increasing numbers of air travelers.
    Two years ago, the Commonwealth of Virginia was considering a 
number of proposals to privatize the Dulles Toll Road, a road built and 
operated by Virginia, but lying in the Authority's right-of-way. The 
Authority proposed that, in lieu of privatization, it take over 
operation of the Toll Road and use the excess revenue from the Toll 
Road to extend the regional Metrorail system to Dulles Airport. I am 
sure I speak for all my colleagues on the Airports Authority Board when 
I tell you that I am proud the Governor of Virginia placed his 
confidence in the Authority by accepting our proposal and asking us to 
take over responsibility for building Metrorail to Dulles. The 
magnitude of this undertaking is substantial: the Dulles rail project 
will be, at upwards of $5 billion, one of the largest investments in 
the Washington metropolitan region's transportation system during the 
next decade.
    Complementing existing ground access to Dulles with a rail line is 
a critically important service improvement for our passengers, and for 
the thousands of people who work at Dulles airport. Increasingly, the 
world's leading international airports offer their customers airport 
access through rail service, and the Authority believes that Dulles, 
the international airport for the capital of the United States, should 
join their ranks. With the completion of the Dulles rail line, both of 
the Authority's airports will have convenient rail service, accessible 
directly from the airport terminals. We know that, particularly in the 
Washington area market, customers want rail service to the airport: the 
percentage of Washington National Airport's passengers who access the 
airport by rail is the highest of any U.S. airport.
    During my tenure at the Airports Authority, I have chaired both the 
Finance Committee and the Strategic Development Committee. I have been 
involved vocationally in transportation during most of my professional 
career, in both the public and private sectors. I believe my experience 
on the Board and my professional background will enable me to 
contribute meaningfully to the work of the Authority as it assumes an 
ever more important role in the Washington region's and the Nation's 
transportation system.
    I respectfully ask for your favorable consideration of my 
nomination and will be pleased to respond to your questions.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name (Include any former names or nicknames used): Robert Clarke 
Brown.
    2. Position to which nominated: Member, Board of Directors, 
Metropolitan Washington Airports Authority (term expiring Nov. 22, 
2011).
    3. Date of Nomination: June 21, 2007.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: Case Western Reserve University, 10900 Euclid Avenue, 
        Cleveland, OH 44106.

    5. Date and Place of Birth: Dec. 17, 1947; Mansfield, OH.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Catherine B. Scallen, Associate Professor, Department of Art 
        History, Case Western Reserve University, Cleveland, OH 
        (spouse); Marcia Grace Brown, 10 (daughter).

    7. List all college and graduate degrees. Provide year and school 
attended.

        Princeton University, B.S.E., 1969.

        Harvard Law School, J.D., 1974.

        Georgetown University Law Center, LL.M., 1975.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Full-time, permanent employment:

        United States Navy, 1969-1971.

        Fellow, Institute for Public Interest Representation, 1974-
        1975.

        Counsel, House Committee on Interstate and Foreign Commerce, 
        1975-1976.

        Jimmy Carter Presidential Campaign, 1976.

        Carter-Mondale Transition Team, 1976-1977.

        Special Assistant, U.S. Department of Transportation, 1977-
        1979.

        Senior Counsel, House Committee on Government Operations, 1979.

        Attorney, Jones, Day, Reavis & Pogue, 1980-1983.

        Assistant Director, Ohio Department of Transportation, 1983-
        1987.

        Senior Vice President, Lehman Brothers, 1987-1994.

        Executive Vice President, Envirotest Systems Corp., 1994-1995.

        Managing Director, Key Capital Markets, 1996-1999.

        Capital Markets Advisor, U.S. Department of Transportation, 
        1999-2007.

        Treasurer, Case Western Reserve University, 2007-present.

        Summer jobs:

        1971: Department of Housing & Urban Development.

        1972: Ohio Attorney General.

        1973: Reavis, Pogue, Neal & Rose (law firm).

    Jobs which have given me particularly valuable experience for 
service on the MWAA Board include:

        1. my civilian government service--two tours at U.S. DOT and a 
        stint at Ohio DOT, and

        2. my investment banking experience, particularly that at 
        Lehman Brothers, where I specialized in transportation finance.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        Member, Board of Directors, Metropolitan Washington Airports 
        Authority (since 2000).

        Financial Advisor, Ashtabula County, OH (2002-2004).

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Financial Advisor, American University (2002-2003).
        Trustee, University Circle Incorporated (2004-present).

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Member, St. Paul's Episcopal Church, Cleveland Heights, OH 
        (since 2002) (service on Stewardship Committee).

        Member, Fairmount Presbyterian Church, Cleveland Heights, OH 
        (19972002) (service as Trustee).

        Executive Committee, Municipal Securities Division, The Bond 
        Market Association (1996-1999).

        D.C. Bar and Ohio Bar since 1975 (both inactive).

        Former member, Princeton Club of New York (resigned approx. 
        1998).

    To the best of my knowledge, no organization or club of which I 
have been a member restricts membership on the basis of sex, race, 
color, religion, national origin, age, or handicap.
    13. Have you ever been a candidate for and/or held a public office 
(elected, nonelected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    I have never been a candidate for elected public office.
    For full-time, paid, appointed positions I have held, at both the 
state and Federal levels, please see my response to question A.8.
    As noted in my response to question A.10., I have also been 
appointed to an unpaid, part-time position as a Member of the Board of 
Directors of the Metropolitan Washington Airports Authority.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

    Political contributions:

        Sherrod Brown for Senate: $1,950 (total of multiple 
        contributions in 2006).

        Sherrod Brown for Senate: $2,100 (2005).

        John Kerry for President: $2,000 (total of multiple 
        contributions in 2004).

        Kerry-Edwards General Election Legal and Accounting Compliance 
        Fund: $1,000 (2004).

        Democratic Congressional Campaign Committee: $1,000 (2004).

        Bill Bradley for President: $51,000 (1999).

        Multiple contributions to KeyCorp PAC totaling more than $500 
        (1996-1999).

    Offices held/services rendered: No offices held in a state or 
national political party or election committee; services rendered as a 
volunteer to various Democratic candidates during the past 10 years.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Fellow, Institute for Public Interest Representation (post-
        graduate fellowship).

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

    Publications:

        ``A More Humane Military'' (book review of Pawns, by Peter 
        Barnes), The Progressive, July 1972.

        ``Where Does It Hurt, General,'' The New Republic, September 
        30, 1972.

        ``Standing Up to the CIA,'' The Progressive, July 1973.

        Various articles, principally news stories, in Harvard Law 
        Record (law school weekly newspaper), 1972-1973.

        ``State Action Analysis of Tax Expenditures,'' 11 Harvard Civil 
        Rights--Civil Liberties Law Review 97 (1976).

        ``Don't Hike Federal Gas Tax,'' The Plain Dealer (Cleveland), 
        January 14, 1989.

        ``Playing Catch,'' The Plain Dealer (Cleveland), June 21, 1989.

        ``Designing Credits for New Toll Roads,'' published in 
        proceedings of International Bridge, Tunnel & Turnpike 
        Association 1990 Workshop, May 1, 1990.

        ``Recent Developments in the Municipal Bond Market and the 
        Impact on Toll Financing,'' published in proceedings of 
        International Bridge, Tunnel & Turnpike Association 1992 Joint 
        Meeting of Administration, Finance and Risk Management 
        Committees, June 8, 1992.

        ``Faster Turnpike Speed Damaging Move'', Crain's Cleveland 
        Business, September 6, 2004.

        ``University Circle Workers Are Losers in Bottom-Line Decision-
        Making,'' The Plain Dealer (Cleveland), January 7, 2005.

    Speeches:

        International Air-Rail Organisation, September 2005: Dulles 
        rail project.

        Moody's Investors Services Infrastructure Conference, October 
        2005: airport capital planning.

        DEPFA conference on privatization, October 2006.

    During the past two decades, I have on numerous occasions 
participated in professional conferences in the course of which I have 
made informal (i.e., no prepared text) presentations or spoken as a 
member or moderator of a panel on the subject of infrastructure 
finance.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or 
nongovernmental capacity and specify the date and subject matter of 
each testimony.

        (a) testimony as a member of a panel of investment bankers on 
        the subject of infrastructure finance before a House committee 
        (date was sometime in the late 1980s; committee was probably 
        House committee on transportation & infrastructure).

        (b) first confirmation hearing for appointment to MWAA Board, 
        June 29, 1995.

        (c) second confirmation hearing for appointment to MWAA Board, 
        September 15, 1998.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    With the Authority embarking on the Dulles rail project, this is a 
particularly critical time in its history. There is no more important 
transportation project in the Washington region today than Dulles rail. 
I believe my background in surface transportation and in transportation 
finance will enable me to make a useful contribution to the Board as it 
works to complete this project.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    The Board of Directors sets policy. It appoints the Authority's top 
management and directs them to manage the operations of the Authority 
in accordance with that policy. The Board should exercise continuing 
and diligent oversight to ensure that management is carrying out its 
responsibilities in accordance with Board policy.
    My service as a Member of the Board has given me valuable 
experience to continue to carry out the responsibilities of a Director.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    The three most significant challenges currently facing MWAA are:

        1. financing and constructing the Dulles rail project;

        2. completing the major construction program underway at 
        Washington Dulles International Airport;

        3. strengthening international air service at Washington 
        Dulles.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I have no deferred compensation agreements.
    I am entitled to receive, upon reaching retirement age, a small 
pension from Lehman Brothers based on my participation in the firm's 
defined benefit pension plan during the 7 years I was employed there.
    I am entitled to receive, upon reaching retirement age, a pension 
from the Federal Government based on my participation in the Federal 
pension plan during my several tours of civilian service and my time in 
the U.S. Navy.
    I am entitled to receive, upon reaching retirement age, a pension 
from the State of Ohio based on my participation in the state's pension 
plan during my service there.
    I own all my other retirement accounts (IRAs, etc.), and none of 
them involves ``continuing dealings'' with any former associate, client 
or customer.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    Members of the Board of Directors of the Metropolitan Washington 
Airports Authority serve without compensation. I expect to continue to 
be employed full-time as Treasurer of Case Western Reserve University 
during my service as a Member of the Board.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    6. Explain how you resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    If I believe I have a conflict, I will recuse myself from any Board 
deliberations or action related to the matter in question.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain.
    No. (Please also refer to response to question C.6.)
    2. Have you even been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    Neither I nor any business of which I have been an officer has been 
a party in any administrative agency proceeding or civil litigation. 
Please see response to question C.6. in connection with a proceeding of 
the National Association of Securities Dealers, a self-regulatory 
organization.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    Key Capital Markets, a former employer, was sanctioned in 1997 as a 
result of two small political contributions I made prior to the 
commencement of my employment there.
    In 1994 and 1995 I made two small ($50 and $100) political 
contributions to a member of the Cleveland City Council who was a long-
time personal friend. At the time I made the contributions, I was 
living in New York, was not employed in the securities industry, and 
had not yet had any discussions with Key Capital Markets about 
employment. Subsequently, in 1996, I became an employee of Key Capital 
Markets in the Public Finance Department and thus became a Municipal 
Finance Professional as that term is defined by the Municipal 
Securities Rulemaking Board.
    Rule G-37 of the Municipal Securities Rulemaking Board prohibits a 
broker-dealer from engaging in securities work for a municipal issuer 
if any Municipal Finance Professional employed by that broker-dealer 
has, during the preceding 2 years, made a political contribution to an 
official of that issuer for whom he could not vote. In 1994 and 1995 I 
was a resident of New York, and thus I could not vote for the Cleveland 
Councilman when I made the contributions to him. Because I had made 
political contributions to a Cleveland official for whom I could not 
vote and subsequently became employed by Key Capital Markets as a 
Municipal Finance Professional less than 2 years after the 
contributions were made, Key Capital Markets was barred until 1997 (two 
years after the 1995 contribution was made) from doing underwriting 
work for the City of Cleveland. Because the firm had played a minor 
role in a Cleveland underwriting before either the firm or I was aware 
my conduct had been a violation, the National Association of Securities 
Dealers assessed a small fine, in the amount of the revenue the firm 
had generated through its work on the underwriting (approximately 
$10,000), against the firm.
    I was neither fined nor sanctioned.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? I will.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistleblowers from reprisal for 
their testimony and disclosures? I will.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? I will.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                     resume of robert clarke brown
Employment
    Case Western Reserve University, Vice President and Treasurer, 
2007-present.

        Manage University's balance sheet

        In consultation with investment bankers and financial advisors, 
        oversee long-term debt portfolio, including derivative 
        exposure.

        Manage short-term investment portfolio and cash management; 
        arrange University bank relationships.

    Brownlea Advisors, Principal, 2000-present.

        Created financial advisory firm to serve public agencies and 
        nonprofit organizations.

        Advise on the development of major projects and design 
        attendant financings.

        Advised Ashtabula County on development and financing of Geneva 
        State Park Lodge.

        Advised American University on $45 million financing.

Prior Employment
    U.S. Department of Transportation, Capital Markets Advisor, 1999-
2007.

        Assisted in establishment of new Federal credit assistance 
        program under which U.S. DOT supports financing of large, 
        nationally significant surface transportation projects.

        Working with investment bankers, private project developers, 
        insurers, rating agencies, and private attorneys, represent 
        U.S. DOT in negotiations of transportation project financings 
        employing Federal loans and Federal guarantees authorized by 
        the program.

        Structure public-private partnerships which promote private 
        sector development while protecting the public interest.

    Key Capital Markets, Inc., Managing Director, Public Finance, 1996-
1999.

        Led establishment of the Public Finance department within 
        KeyCorp's new investment banking subsidiary.

        Recruited and hired bankers to staff six offices nationwide.

        Managed 25 professionals plus support staff.

        Increased market share in all target markets and tripled 
        department revenues in 3 years.

        Executed financings for both government agencies and nonprofit 
        organizations.

    Envirotest Systems Corp., Executive Vice President, Marketing and 
Government Relations, 1994-1995.

        Developed competitive strategies for marketing vehicle 
        emissions testing services to state governments.

        Created testing plans tailored to fit political and demographic 
        requirements of specific markets.

    Lehman Brothers, Senior Vice President, 1987-1994.

        Developed finance plans for transportation projects of state 
        and local government agencies.

        Presented finance plans to credit rating agencies, bond 
        insurers, investors, and public constituencies.

        Executed over $2 billion in capital markets financings on 
        behalf of senior-managed clients.

    Ohio Department of Transportation, Assistant Director, 1983-1987.

        Managed ODOT's public transit, aviation, rail and water 
        transportation programs.

        Led formation of new ODOT Division of Water Transportation and 
        designed first state program to support Ohio water 
        transportation.

        Created first state grant program for transit.

        Supervised 70 employees; coordinated related activities of 12 
        district offices throughout the state.

        Led ODOT's work with the Ohio Turnpike in development of a 
        long-range strategic plan for the Turnpike.

    Jones, Day, Reavis & Pogue, Attorney, 1980-1983.

        Private practice of law in areas of municipal bonds, government 
        regulation, real estate and general corporate (Cleveland 
        office).

    U.S. House of Representatives, Senior Counsel, Committee on 
Government Operations, Subcommittee on Environment, Energy and Natural 
Resources, 1979.

        Led oversight hearings and investigations of Nuclear Regulatory 
        Commission.

        Staff author of Committee report on nuclear power plant 
        emergency planning.

    U.S. Department of Transportation, Special Assistant to the 
Assistant Secretary for Policy and International Affairs, 1977-1979.

    U.S. House of Representatives, Counsel, Interstate and Foreign 
Commerce Committee, Subcommittee on Oversight and Investigations, 1975-
1976.

    Institute for Public Interest Representation, Fellow and staff 
attorney, 1974-1975.

        Conducted advocacy litigation in Federal courts and before 
        Federal agencies.

        Taught and supervised third-year law students in clinical legal 
        program.

    United States Navy, Lt. (j.g.), 1969-1971.

        Engineering aide to Admiral H.G. Rickover.

        Oversaw testing and materials programs of government 
        contractors engaged in development, production and operation of 
        nuclear power plants of Navy ships.

Professional Activities
    Board of Directors, University Circle Incorporated, Cleveland, Ohio 
(2004-present).

    Board of Directors, Metropolitan Washington Airports Auth. (1996-
1997; 2000-present) (appointed to the Board by President Clinton).

        Formerly, Chair, Finance and Audit Committees;

        Currently, Chair, Strategic Development Committee.

    Executive Committee, Municipal Securities Division, The Bond Market 
Association (1996-1999).

    Chairman, Maglev Study Advisory Committee (1996-1997).

        (appointed by the U.S. Secretary of Transportation).

    Board of Directors, American Public Transit Association (1993-
1996).

    Committee on Finance, Transportation Research Board.

    Member: Ohio Bar, District of Columbia Bar.

Education
    Princeton University, B.S.E., 1969; Major: Aeronautical 
Engineering.

        Graduated with High Honors.

        Academic honors: Phi Beta Kappa, Sigma Xi (scientific 
        research), Tau Beta Pi (engineering).

        Senior thesis on research of combustion processes of metals 
        published by NASA.

    Harvard Law School, J.D., 1974.

        Editor-in-Chief, Harvard Civil Rights--Civil Liberties Law 
        Review.

    Georgetown University Law Center, LL.M., 1975.

        Field of concentration: administrative law and regulation.

    The Chairman. Your statement will be made part of the 
record, sir. I have a question. I don't expect an answer at 
this moment, but will you provide me with a written report?
    Mr. Brown. Yes, sir.
    The Chairman. Recently, a report was rendered, suggesting 
that over 60 percent of all flights in the United States are 
delayed, especially along the Northeast Corridor, including 
Washington. If you do have any views or suggestions or 
proposals that would alleviate this problem, please share it 
with us.
    Mr. Brown. Mr. Chairman, I will prepare a written response 
to that.
    [The information previously referred to follows:]

                                        Robert Clarke Brown
                               Shaker Heights, OH, October 29, 2007
Hon. Daniel K. Inouye,
Chairman,

Hon. Ted Stevens,
Vice Chairman,

Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Mr. Chairman and Mr. Vice Chairman:

    I appreciated the opportunity to appear before the Committee on 
October 23 on my re-nomination to the Metropolitan Washington Airports 
Authority (MWAA).
    During the hearing, the Chairman asked that I share my views on the 
reasons and possible remedies for the significant delays that domestic 
airline passengers have experienced this year. I am pleased to do so. 
Please note that the views below are entirely mine, and are not to be 
taken as views or positions of MWAA.
    This year's air travel delays have largely been related to weather 
and air traffic capacity. However, they have been particularly serious 
along the East Coast because the FAA's air traffic control system in 
this region, in the best of weather conditions, is now operating at or 
very near its capacity. The introduction of severe weather into an 
already constrained air traffic system exacerbates delays as the 
system's capacity is further constrained by adverse weather. Thus, 
delays initially caused by weather eventually result in further delays 
caused by an air traffic system that is incapable of handling the 
traffic consequences of poor weather.
    Neither government nor the airline industry can control the 
occurrence of adverse weather. f However, both are capable of reducing 
the travel delays that airline passengers are increasingly 
experiencing. And, with domestic airline travel projected to increase 
two to three times in the next 20 years, it is clear that extraordinary 
actions are necessary.
    For the air traffic control system, major infrastructure 
advancements must be undertaken. These are now underway, in the form of 
the NextGen Air Transportation System, which will move today's air 
traffic system from its radar-based, analog technology to a satellite-
based, digital communication system. However, full implementation of 
NextGen advancements is 15 to 20 years away, and no system of funding 
its implementation has been identified. In the meantime, efforts must 
continue to improve the capacity of the current air traffic system 
through, for instance, more precise navigational arrivals and 
departures, the redesign or expansion of air space around airports, 
better weather forecasting techniques, and improved traffic flow 
modeling and management tools.
    Air traffic delays, of course, can be caused by factors other than 
adverse weather and today's air traffic control system. These other 
factors also can exacerbate delays caused by weather and inadequate air 
traffic system capacity. A significant factor involves airports whose 
gate capacity, during peak periods, falls short of demand, forcing 
aircraft to wait until a gate is available. This, of course, means more 
delay and more frustration for passengers who have already experienced 
delays en route.
    Airports can address their role in air travel delay by ensuring 
that their gate and ground capacity is sufficient to handle anticipated 
air traffic demand. Washington Dulles International Airport is doing 
just this. The airport is in the middle of a $4 billion capital 
expansion program. It is building a new fourth runway and has plans, 
which have completed the requisite environmental review, to add a 
fifth. MWAA is also constructing at Dulles an underground automated 
people mover system, additional terminal space, new fuel tanks and 
lines, baggage system improvements, expanded roadways and other 
infrastructure enhancements. In the years ahead, Dulles Airport should 
have adequate capacity to meet projected air traffic demand.
    I note that, since the 1960s, Washington National Airport has been 
subject to a ``high density rule'' that limits the number of flights 
that carriers may schedule. While not uniformly embraced, the rule has 
been an effective tool to prevent delays at the airport, as well as to 
protect the surrounding community from aircraft noise. The rule became 
necessary because National lacked the capacity to handle the level of 
flights sought by airlines. However, amendments to National's high 
density rule have added flights to the airport over the years which, by 
increasing passenger load, have begun to strain its facilities (e.g., 
its parking garages and space for security facilities). Nonetheless, 
the limitations placed on the number of permitted flights at National 
have served to moderate flight and passenger delays at the airport.
    The FAA has done a credible job of increasing the capacity of the 
air traffic system over the years, and its NextGen program, when fully 
matured, will greatly expand the system's capacity. Until then, 
however, the significant problem of air travel delay will increase, and 
must be addressed by a combination of enhancements to the current air 
traffic system and expansion of airports' capacity to efficiently 
handle incoming and outgoing traffic.
    I appreciate the opportunity to present these views. I would be 
pleased to address any other questions you or other committee members 
may have.
            Sincerely,
                                       Robert Clarke Brown.

    Mr. Brown. Let me just say briefly, that there are many 
causes to the--to the delay of, as you say, the majority of 
flights now being delayed during this past summer, which was 
very busy in the airline business.
    There are many causes of those delays. Airport capacity is 
one. The air traffic control system is another. And of course, 
weather is always a problem, especially in the summer time.
    With respect to the first, we are, I mentioned, we do have 
a large building program at Washington Dulles. We think that 
will go part way to addressing the problem of delay for flights 
out of Dulles. National is pretty well built out. It is also 
capacity restrained, constrained, as you know, through the 
slots and perimeter rule. So, it is--it is not as much of a 
problem there, although we still have delay issues there, more 
because of the air traffic control system. But I will respond 
in more detail in writing.
    Thank you.
    The Chairman. As you know, I travel a lot. Last Sunday, 
this past Sunday, I flew to Alabama and got back yesterday 
afternoon. And, my bag did not follow me. But it finally caught 
up with me. You're not responsible for that.
    [Laughter.]
    The Chairman. I just wanted you to know that I share the 
frustration of many of our travelers. So, I look forward to 
your report, sir.
    Mr. Brown. Thank you, Mr. Chairman.
    The Chairman. Senator Stevens?
    Senator Stevens. Thank you.
    Mr. Brown, what is the Board of Directors' relationship to 
TSA? Is there any communication between them and you with 
regard to policies at the airport?
    Mr. Brown. Senator Stevens, we--we try to have a close 
relationship with TSA. There's no question, it is a--it is a 
partnership, a dynamic partnership. TSA does make policies. I 
think it's fair to say that the various airports around the 
country don't always agree with, but we do work continually 
with TSA, in trying to solve the problems that we are mutually 
addressing. We certainly have asked TSA to provide additional 
resources at our airports, to support the security requirements 
of a large number of passengers going through the security 
checkpoints.
    But I'm sure, in fairness to TSA, they are hearing similar 
complaints from many other airports around the country. And, 
I'm sure part of the problem is, they themselves are resource-
constrained, and are making decisions about how those resources 
get allocated. But, we certainly do work as closely with them 
as we can. It is, frankly, always a little bit of, I think it's 
fair to say, a little bit lobbying. Each airport is doing that, 
with the TSA trying to get a little bit larger commitment of 
resources to their needs, because passengers, at the end of the 
day, going through our airport, don't really differentiate 
between TSA and the airport operator, as to who is responsible 
if they miss their flight, because they were held up trying to 
get through a security checkpoint.
    So, it's very much in our interest. We want the experience 
of our airport customers, our passengers, to be a positive one, 
a pleasant one. We do everything we can to try to work with TSA 
to help make that happen.
    Senator Stevens. Well, the administration of the airports 
doesn't pay anything toward those security problems, do they?
    Mr. Brown. We do not pay for those. We have space that we 
rent to TSA. TSA actually does pay us rent for the space that 
they use at the airport.
    Senator Stevens. I've been told that there are some real 
problems, in terms of keeping people there at these two 
airports. You just have two, don't you?
    Mr. Brown. Yes.
    Senator Stevens. And particularly, turnover in screeners 
and people like that. Does the Board look into problems like 
that?
    Mr. Brown. I have not--I don't know too much about that, 
Senator. I'm happy to look into that further and find out from 
our airport operators if, in fact, their sense of the TSA 
workforce, is that the turnover's been very heavy. I'm not 
familiar with that situation at all, but happy to respond in 
some detail in writing to you after the hearing.
    Senator Stevens. Well, back in my days on the Board, we 
were told that management operation on a daily basis wasn't our 
responsibility. Does the Board get into it at all now?
    Mr. Brown. Well, I think--I think on some of those kinds of 
operational issues, we--we do tend to feel that management 
really handles them. But I think when it gets to be a problem 
that very much affects the overall experience of our customers, 
of our passengers, and I think when there's a legislative 
inquiry, I think it's appropriate for the Board to explore it 
further. Yes, Senator.
    Senator Stevens. Do you think Congress should give the 
Boards of Directors that control airports, such as these two, 
further powers, with regard to TSA?
    Mr. Brown. Well, you know, that is--I'm sure that's a 
difficult question that you all wrestle with. We certainly, as 
an airport operator, would like to feel we had some authority 
with TSA. As you say, we really don't pay them for the service 
that they provide. They don't really feel that they are 
obligated to respond to us. I think they try to be good 
partners, but I think we would like to have some authority, 
with respect to the way TSA screeners are deployed, what times 
of the day, how many lanes are open, and so on and so forth. 
And I think the Authority would--I'm speaking only for myself, 
the Board has not discussed this--but I think you would find 
some support among directors of the Airports Authority to give 
us additional powers to have some oversight on the way TSA 
deploys its resources. Yes.
    Senator Stevens. Thank you very much and thanks for your 
willingness to serve another term. It's not an easy task. I'm 
sure it's a burden coming in from Ohio to deal with this. So, 
we thank you for what you're doing. We appreciate it very much.
    Mr. Brown. Thank you very much, Senator. I very much 
enjoyed my service on this Board. It has been a privilege.
    The Chairman. Mr. Brown, I thank you very much, and 
congratulations.
    Mr. Brown. Thank you, Mr. Chairman.
    The Chairman. Our next witness is the Inspector General-
Designate, United States Department of Commerce, Mr. Todd J. 
Zinser.
    Mr. Zinser, welcome, sir.

STATEMENT OF TODD J. ZINSER, NOMINATED TO BE INSPECTOR GENERAL, 
                  U.S. DEPARTMENT OF COMMERCE

    Mr. Zinser. Thank you, Mr. Chairman, Vice Chairman Stevens. 
I prepared a written statement and would like to have it 
submitted for the record if I could.
    The Chairman. Without objection, so ordered.
    Mr. Zinser. I'd like to summarize that statement briefly.
    I'm honored to appear before you today as the President's 
nominee to be Inspector General of the Department of Commerce. 
I have been privileged to testify before this Committee and its 
Subcommittees as Acting Inspector General of the Department of 
Transportation, and to have contributed to the important 
oversight work of this Committee. I would like to thank 
Secretary Gutierrez for his expression of confidence and the 
Committee, for considering my nomination expeditiously.
    Mr. Chairman, as you and your staff know, public service is 
an honor. For the past 24 years, I have been honored to be a 
career civil servant. I began as an investigator with the 
Department of Labor in 1983, transferred to the Department of 
Transportation Office of Inspector General 16 years ago, in 
1991, and for the past 7 years, I have served as Deputy 
Inspector General, including 8 months as Acting Inspector 
General.
    It is my firm belief, that throughout my Federal service, I 
have demonstrated integrity, objectivity, commitment to good 
government, and leadership, characteristics essential to being 
an effective Inspector General. The Department of Commerce, 
like the other major departments of government, requires an 
objective, independent Inspector General, who will make fair 
but tough, fact-based calls and report to the Secretary and the 
Congress fully and forthrightly.
    The Inspector General should work constructively with the 
Department and stakeholders, as a force for positive change and 
all parties should constantly strive for a relationship built 
upon mutual respect and trust. However, the Inspector General 
is under an absolute obligation to report to the Congress about 
significant problems.
    I know that Secretary Gutierrez shares this view, and I am 
confident that, if confirmed, the Office of Inspector General 
staff and I, would have a good and open working relationship 
with the Secretary and the Congress.
    My experience at the Department of Transportation OIG in 
working with the Secretary and Congress, certainly this very 
Committee, has been entirely positive. This experience has 
taught me how to conduct investigations and audits in a 
credible and constructive way. It has helped me appreciate the 
importance of providing policymakers with current, relevant, 
factual, and objective information.
    I have learned many other lessons, but would like to stress 
three in particular. First, that the hallmarks of independence, 
objectivity, and nonpartisanship strengthen an IG's 
credibility, especially when the findings of an audit or 
investigation run counter to what may have been expected. 
Second, the importance of Congress in providing oversight and 
making progress and leading reform. And third, that government 
leaders want to get ahead of problems and expect to hear from 
their Inspectors General and GAO about risks and 
vulnerabilities and their best recommendations for solutions.
    If confirmed, I am committed to applying these lessons and 
my experience to the audits and investigations performed by the 
Office of Inspector General at the Department of Commerce. As 
you noted, Mr. Chairman, in your oversight hearing for the 
Department in August, the business of the Department of 
Commerce is complex and demanding. Its mission includes 
conserving and managing the oceans, taking care of the census, 
providing economic opportunities, predicting the weather, and 
promoting commerce and innovation and good stewardship of the 
resources that contribute to our economic prosperity.
    Secretary Gutierrez, similarly, emphasized that the roots 
of the Department are firmly grounded in promoting commerce and 
economic growth, and exercising stewardship of our oceans and 
waterways.
    I want to assure the Committee that, if confirmed, those 
issues will have the highest priority for the Office of 
Inspector General as well.
    Mr. Chairman, that concludes my statement. I would be 
pleased to respond to any questions you or Vice Chairman 
Stevens may have.
    [The prepared statement and biographical information of Mr. 
Zinser follow:]

    Prepared Statement of Todd J. Zinser, Nominated to be Inspector 
                  General, U.S. Department of Commerce

    Chairman Inouye, Vice Chairman Stevens and Members of the 
Committee:
    I am honored to appear before you today as President Bush's nominee 
to be Inspector General of the Department of Commerce. I have been 
privileged to testify before this Committee and its Subcommittees as 
Acting Inspector General of the Department of Transportation (DOT), and 
to have contributed to the Committee's vital oversight work while 
leading the talented staff at the DOT Office of Inspector General 
(OIG).
    The Inspector General position in a large Federal agency such as 
the Department of Commerce is a very important and challenging one. I 
would like to thank Secretary Gutierrez for his expression of 
confidence and the Committee for considering my nomination 
expeditiously. I would also like to express my appreciation to 
Inspector General Calvin Scovel, and former Inspector General Kenneth 
Mead, for their support over the past 10 years at DOT. I would also 
like to extend my thanks to the staff at the DOT Office of Inspector 
General, with whom I have had the privilege of serving for the past 16 
years. Finally, but not least, I want to thank my children, Ken, 
Philipp, and Corinne, for their love and support, especially at this 
time as I seek the Committee's approval for becoming Inspector General 
at the Department of Commerce.
    For the past 24 years, I have been a career civil servant. I began 
as an investigator with the Department of Labor in 1983 and transferred 
to the Department of Transportation, Office of Inspector General, in 
1991 where, for the past 7 years, I have served as Deputy Inspector 
General. From February 2006 to October 2006, I also served as DOT's 
Acting Inspector General. It is my firm belief that throughout my 
Federal service I have demonstrated integrity, objectivity, commitment 
to good government, and leadership--characteristics essential to being 
an Inspector General.
    I am most proud of my 16 years conducting audits and investigations 
of transportation issues and programs at the Department of 
Transportation. I believe the OIG staff and I truly made a difference 
in helping Congress and DOT in their efforts to provide for the 
economic well-being and competitiveness of the country and ensure a 
safer, more secure, efficient, and affordable transportation system. If 
confirmed, I would strive to make the same contributions in support of 
the important mission of the Department of Commerce.
    It is against this backdrop that I would first like to express my 
view of the Inspector General's role in the Federal Government.
    The Inspector General Act was passed in 1978 and provides that the 
Inspector General will conduct audits and investigations to improve the 
economy, efficiency, and effectiveness of government programs and to 
detect and prevent fraud, waste, and mismanagement. My view is that the 
Department of Commerce, like the other major departments of government, 
requires an independent, objective Inspector General, who will make 
fair but tough, fact-based calls and report to the Secretary and the 
Congress fully and forthrightly. Further, the Inspector General should 
work with the Secretary, senior departmental managers, and Congress as 
a force for positive change.
    The Secretary, Deputy Secretary, and Inspector General must also 
have a two-way open line of communication and it should be used on a 
regular, ongoing basis. I understand full well that the same is true 
for the relationship between the Inspector General and the Congress. 
The Inspector General should work constructively with the Department 
and should constantly strive for a relationship built upon mutual 
respect and trust. However, the Inspector General also is under an 
absolute obligation to report to the Congress about significant 
problems. I know that Secretary Gutierrez fully shares this view and I 
am confident that, if confirmed, the Office of Inspector General staff 
and I would work hard to have a good and open working relationship with 
the Secretary and the Congress.
    My experience at the DOT OIG in working with the Secretary and 
Congress has been entirely positive. I consider myself fortunate to 
have worked with DOT and its modal administrations, the House and 
Senate, Members of both parties, and various transportation 
constituencies. This experience helped me learn about the 
implementation and impact of national programs; understand how 
decisions are made; appreciate the importance of providing policy-
makers with current, relevant, factual and objective information; and 
conduct investigations and audits in a credible and constructive way.
    I have learned that the hallmarks of independence, objectivity, and 
nonpartisanship strengthen an IG's credibility, especially when the 
findings of an audit or investigation run counter to what may have been 
expected. I have also learned about the importance of Congressional 
oversight in making progress and leading reform. My experience at the 
DOT OIG has also taught me that government leaders want to get ahead of 
problems and expect the Inspectors General and GAO to tell them about 
risks and vulnerabilities and to provide their best recommendations for 
solutions.
    As Deputy Inspector General for the past 7 years, I managed a 
talented staff of about 430 in directing audits and investigations. Our 
work since 2000 has resulted in more than 700 reports covering a broad 
range of audit findings in the transportation modes and approximately 
140 testimonies to Congressional committees. The basic standards of 
objectivity, independence, and high quality were fundamental in all our 
work, reports, and testimony. Much of this work was undertaken in 
response to requests from this Committee, and other Senate and House 
authorization and appropriation committees.
    I know first-hand the importance of the Inspector General function 
and how a large Department and its subordinate agencies operate. The 
audit and investigative functions of the Inspector General, under the 
umbrella of independence and objectivity are directed toward 
identifying and preventing fraud, waste, and inefficiency. If 
confirmed, I am committed to applying this base of experience to the 
audits and investigations performed by the Office of Inspector General 
at the Department of Commerce. I am equally committed, if confirmed, to 
providing the strong leadership necessary to address the current 
challenges facing the Office of Inspector General. I will work with 
this Committee and the Congress to address these challenges head on.
    Mr. Chairman, the work of the Inspectors General covers a broad 
front and in recent years the Inspector General community has been 
required by Congress to issue annual reports on the top challenges 
facing their respective departments. Those reports are intended to 
focus attention on the most pressing issues and serve to aid both 
Congress and the Administration in serving the American people.
    This seems particularly important for the Department of Commerce. 
As you noted, Mr. Chairman, in your oversight hearing for the 
Department in August of this year, the business of the Department of 
Commerce is complex and demanding. Its mission includes conserving and 
managing the oceans, ensuring the accuracy of standards of measurement, 
taking care of the census, providing economic opportunities, predicting 
the weather, promoting commerce and innovation and good stewardship of 
the resources that contribute to our economic prosperity. Secretary 
Gutierrez similarly emphasized that the roots of the Department are 
firmly grounded in promoting commerce and economic growth, and 
exercising stewardship over our oceans and waterways. I want to assure 
the Committee that, if confirmed, these issues will have the highest 
priority for the Office of Inspector General as well.
    Mr. Chairman, this concludes my statement. I will be pleased to 
respond to any questions you or the other members of the Committee may 
have.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name (Include any former names or nicknames used): Todd J. 
Zinser.
    2. Position to which nominated: Inspector General, U.S. Department 
of Commerce.
    3. Date of Nomination: September 7, 2007.
    4. Address:

        Residence: Information not released to the public.

        Office: U.S. Department of Transportation, West Wing, 7th 
        Floor, 1200 New Jersey Avenue, SE, Washington, DC 20590.

    5. Date and Place of Birth: September 6, 1957; Cincinnati, OH.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: None (Divorced); Children: Kenneth Zinser, 18; Philipp 
        Zinser, 14; Corinne Zinser, 12.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Miami University, Oxford, OH, Master of Arts, Political 
        Science, 1980.
        Northern Kentucky University, Bachelor of Arts, Political 
        Science, 1979.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        U.S. Department of Transportation.

        Deputy Inspector General, 2001-present.

        Acting Inspector General, February-October 2006.

        Assistant Inspector General for Investigations, 1996-2001.

        Deputy Assistant Inspector General, 1994-1996.

        Special Agent-in-Charge, New York, NY, 1991-1994.

        U.S. Department of Labor, Office of Labor-Management Standards.

        Deputy Regional Administrator, New York, NY, 1989-1991.

        District Director, New Haven, CT, 1987-1989.

        Labor Investigator, Cincinnati, OH, 1983-1987 (non-management).

        Campbell County Kentucky Fiscal Court.

        Director of Administration, 1983.

        Executive Assistant, 1982-1983.

        Austin Community College, Austin, TX, Instructor (Part-Time), 
        1981.


        Texas House of Representatives, Research Assistant, 1981.

        White House Intern, 1980.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years: None.
    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Senior Executive Association, 2002-present.

        Robinson Ice Hockey Club, Fairfax, VA, President, 2006.

        Boy Scouts of America, Troop 1347, Burke VA, 2002-Present.

        Terra Centre Elementary PTA, Treasurer, 1999-2000.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt. No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period: None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Secretary's Gold Medal--Katrina Task Force.

        Secretary's 9/11 Medal.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        ``Tool Time,'' Journal of Public Inquiry, Fall/Winter 1998.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or 
nongovernmental capacity and specify the date and subject matter of 
each testimony.


        Date                  Subject                 Cmte/Subcmte

9-20-2006            Observations on FAA's      House Cmte on T&I
                      Oversight of Aviation     Subcmte on Aviation
                      Safety
7-13-2006            Lower Manhattan            House Cmte on Homeland
                      Reconstruction: Lessons    Security
                      Learned from Large        Subcmte on Management,
                      Transportation Projects    Integration, and
                                                 Oversight
6-21-2006            Observations on Current    House Cmte on T&I
                      and Future Efforts to     Subcmte on Aviation
                      Modernize the National
                      Airspace System
5-4-2006             Household Goods Moving     Senate Cmte on Commerce,
                      Fraud                      Science, and
                                                 Transportation
                                                Subcmte on
                                                 Transportation and
                                                 Merchant Marine
3-28-2006            Perspectives on FAA's FY   Senate Cmte on Commerce,
                      2007 Budget Request and    Science, and
                      the Aviation Trust Fund    Transportation
                                                Subcmte on Aviation
3-16-2006            Pipeline Safety: Progress  House Cmte on Trans. and
                      and Remaining Challenges   Infra.
                                                Subcmte on Highways,
                                                 Transit, and Pipelines
5-11-2005            Background Checks for      House Cmte on Trans. and
                      Holders of Commercial      Infra.
                      Drivers Licenses with     Subcmte on Highways,
                      Hazardous Materials        Transit and Pipelines
                      Endorsement
3-30-1995            FAA Training Programs      House Cmte on
                                                 Appropriations
                                                Subcmte on
                                                 Transportation


    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    My experience as Deputy Inspector General at the Department of 
Transportation for the past 6 years, including 8 months as Acting 
Inspector General, and my other executive and managerial experience 
with the DOT OIG and the Department of Labor gained during my 24 years 
of Federal service, affirmatively qualifies me for this appointment.
    I wish to serve as Inspector General at the U.S. Department of 
Commerce because of the importance of the Inspector General in 
preventing and detecting fraud, waste and abuse and promoting economy 
and efficiency in Departmental programs and operations. I believe my 
appointment could benefit the Department and the Office of Inspector 
General at this critical time for the OIG. The important mission and 
programs of the Department of Commerce require an Inspector General 
focused on integrity, stewardship and getting the most for the 
taxpayers' dollars.
    19.What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    The operations of the Office of Inspector General should be held to 
a higher standard within a Department since the OIG must, in turn, 
audit and investigate the operations of the Department. If an OIG does 
not have proper management and accounting controls for its own 
operation, it diminishes the OIG's standing to make recommendations 
with respect to the operations of other agencies of the Department. As 
Deputy Inspector General at DOT, I directly supervise the operations of 
the OIG, with total budgetary resources of approximately $70 million 
and a staffing level of approximately 430 located throughout the United 
States, including 12 Senior Executives.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    Promptly resolve ongoing investigations by the Congress and the 
Office of Special Counsel concerning the operations of the OIG.
    Address organizational and workforce issues resulting from those 
investigations.
    Plan and implement oversight of the Department of Commerce, 
concentrating on those programs and operations of most importance to 
the Administration and the Congress.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I have no financial arrangements, deferred compensation agreements 
or other continuing dealings with business associates, clients, or 
customers. Retirement accounts consist of retirement coverage under the 
Civil Service Retirement System and annuity and IRA accounts disclosed 
on my Public Financial Disclosure Report, SF278.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    My three children and I hold stock in a company with a wholly-owned 
subsidiary in the broadcasting industry. Ethics Counsel for the 
Department of Commerce has determined that I do not have to divest 
these holdings, but if a matter arises in the Inspector General's 
Office that could affect the financial interests of this wholly owned 
subsidiary (or the parent company), it would be necessary that I recuse 
myself from participating in the matter. In the event my participation 
in a matter from which I am disqualified is important to the 
government, I will seek advice from an ethics official on means to 
resolve any conflict of interest, such as by divestiture or by 
obtaining a conflict of interest waiver.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    I will seek and closely follow the advice of the Department's 
Ethics Counsel in accordance with my Ethics Agreement with the 
Department of Commerce, which is documented by memorandum dated August 
2, 2007, to Barbara S. Fredericks, Assistant General Counsel for 
Administration.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain.
    I have never been disciplined or cited for a breach of ethics. 
However, within weeks of my becoming Acting Inspector General at DOT in 
February 2006, I self-reported to the President's Council on Integrity 
and Efficiency (PCIE), an anonymous complaint that I received. The 
letter asserted that with the departure of the former DOT IG, I would 
be ``unchecked'' in my ``misconduct and mismanagement.'' The six 
allegations contained in the letter all related to my management during 
the tenure of the former IG but provided no explanation why these 
allegations were not raised with the former IG during the 6 years I 
served as his Deputy. After review by the PCIE Integrity Committee, the 
PCIE determined that the complaint did not establish specific 
wrongdoing and referred the complaint back to me and the Department.
    The PCIE also received an anonymous complaint in September 2006, 
alleging that I was ``covering up'' an internal investigation into a 
stolen DOT OIG laptop computer. In response, the Acting Deputy 
Inspector General wrote to the PCIE and informed them that he had been 
assigned by me, weeks before the date of the complaint, to conduct the 
investigation and that I was not involved in managing the 
investigation. The PCIE also closed its file on this allegation.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistleblowers from reprisal for 
their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

                        RESUME OF TODD J. ZINSER

Professional Experience
    U.S. Department of Transportation, Office of Inspector General, 
Washington, D.C. Deputy Inspector General, Career Senior Executive 
Service (August 2001 to Present)
    Duties: Lead the Office of Inspector General oversight of all 
Departmental programs and operations. Manage the daily operations of 
the OIG--Fiscal Year 06 budgetary resources of $70 million and 
authorized staffing level of 430. Supervise 12 members of the Senior 
Executive Service responsible for audits, investigations, legal and 
economic analysis. Served as Acting Inspector General from February 11, 
2006 to October 26, 2006.
    Examples of Fiscal Year 06 accomplishments include:

  <bullet> Presented testimony before Congress 11 times (personally 
        testified 6 times);

  <bullet> Issued audit reports which contained over 200 
        recommendations which identified more than $890 million in 
        questioned costs and funds for better use; and recovery of 
        approximately $71 million; and

  <bullet> Conducted investigations resulting in 169 indictments; 177 
        convictions; fines, restitution and recoveries of approximately 
        $48 million, and 210 administrative actions and debarments.

    U.S. Department of Transportation, Office of Inspector General

  <bullet> Assistant Inspector General for Investigations--SES--
        (January 1996 to August 2001).
  <bullet> Deputy Assistant Inspector General for Investigations 
        (October 1994 to January 1996).
  <bullet> Special Agent-in-Charge, New York, NY (October 1991 to 
        September 1994).

    U.S. Department of Labor, Office of Labor Management Standards

  <bullet> Deputy Regional Administrator, New York, NY (May 1989 to 
        October 1991).
  <bullet> District Director, New Haven, CT (October 1987 to May 1989).
  <bullet> Labor Investigator, Cincinnati, OH (December 1983 to October 
        1987).

Education
    Miami University, Oxford, Ohio, Masters of Art, Political Science, 
1980.

    Northern Kentucky University, Bachelor of Arts, Political Science, 
1979.

Honors and Awards
    Secretary's Gold Medal--Katrina Task Force (2006); Secretary's 9/11 
Medal.

References
    Available upon request.

    The Chairman. I thank you very much, sir. Your previous two 
Department Inspectors General resigned in the midst of 
controversy. What do you intend to do to restore confidence in 
your Department, and also on this Committee?
    Mr. Zinser. Thank you, Senator. I am more familiar with the 
circumstances involving the immediately preceding Inspector 
General at the Department of Commerce. I am also aware that 
there are a number of Inspectors General that are facing 
scrutiny in the government. I think it's unfortunate. I think 
my plan is to first resolve whatever outstanding investigations 
are ongoing at the Department of Commerce.
    I would also address the workforce issues that have been 
created by those investigations. I would also like to prepare 
an effective oversight plan for the office and begin again 
working with the Congress and the Department to oversee the 
important programs that the Department is responsible for. In 
my experience, sir, I think we have to let the work of the 
office rebuild its reputation and contribute to the oversight 
that is necessary for the Department of Commerce.
    The Chairman. How would you rate the morale in your 
Department?
    Mr. Zinser. I don't have any firsthand knowledge at this 
point, sir, but my understanding is that morale is low.
    The Chairman. I thank you very much for your candor.
    Mr. Vice Chairman?
    Senator Stevens. Thank you very much.
    You have indicated in your written statement that you want 
to increase communication between your office and Congress. You 
just mentioned that here. What do you have in mind?
    Mr. Zinser. Sir, I can only respond based on the experience 
that I have had at my current employment at the Department of 
Transportation Office of Inspector General.
    Senator Stevens. You are not intending to send up lobbyists 
or something for the IG's Office are you?
    Mr. Zinser. No sir, I want to have an open communication 
with the staff of the committees of jurisdiction, make sure 
that we are aware of the issues that they view as important, 
and determine whether or not there is any work that the 
Department of Commerce Office of Inspector General could do to 
contribute to that. That is what I would have in mind by 
opening communications more, in terms of building an oversight 
agenda for our office.
    Senator Stevens. The Chairman asked about the morale of the 
Department. Now, do you think morale is something the Inspector 
General should be concerned with?
    Mr. Zinser. Sir, I took the question to mean the morale of 
the Office of Inspector General at the Department of Commerce. 
I do think that would be an important issue to address straight 
away, sir.
    Senator Stevens. I misunderstood. I thought the Chairman 
was speaking about the whole Department.
    The Chairman. No, just----
    Senator Stevens. Just your own office.
    Mr. Zinser. Yes, sir.
    Senator Stevens. What's your opinion about the morale of 
the whole Department?
    Mr. Zinser. Well, again sir, I don't have any firsthand 
experience, but from those who I've spoken to about the 
Department of Commerce, I've heard nothing but good things 
about the people that work there and they are very good to work 
with. In my meetings with Secretary Gutierrez and former Deputy 
Secretary Sampson, I did get a good feeling that they 
understand the role of the Inspector General, they appreciate 
it, and that they are looking forward to having a confirmed 
Inspector General.
    Senator Stevens. And you have been the acting Inspector 
General at one time, right?
    Mr. Zinser. Yes, sir, with the Department of 
Transportation.
    Senator Stevens. Oh, you have not been acting in this 
Department?
    Mr. Zinser. No, sir.
    Senator Stevens. Well, thank you, thank you very much for 
your service. I think this has got to be one of the toughest 
jobs, to be within the Department, yet be the critic of it. So, 
I wish you well.
    Mr. Zinser. Thank you, sir.
    The Chairman. And I wish you well, sir. Thank you.
    Mr. Zinser. Thank you, Mr. Chairman.
    The Chairman. Our next witness is the Commissioner-
Designate of the Federal Maritime Commission, Mr. Carl B. 
Kress.
    Mr. Kress, welcome, sir.

   STATEMENT OF CARL B. KRESS, NOMINATED TO BE COMMISSIONER, 
                  FEDERAL MARITIME COMMISSION

    Mr. Kress. Thank you, Mr. Chairman, Mr. Vice Chairman, 
Members of the Committee. Thank you for this opportunity to 
appear before you today. I have submitted a statement as well, 
and would like to summarize those remarks here.
    The Chairman. Without objection, so ordered.
    Mr. Kress. Thank you. I'm honored to have been nominated by 
the President to serve as Commissioner on the Federal Maritime 
Commission and to be considered by this Committee.
    Before I get started with my comments, I would like to take 
a moment to express particular thanks to my parents, retired 
U.S. Army Corps of Engineers Colonel Carl Franklin, and Mrs. 
Roswitha Kress who, unfortunately, were not able to make it 
today, but I think due to the wonders of the World Wide Web, 
may be watching from California and Germany respectively at 
this time.
    I, also would like to thank for her support my wonderful 
fiancee, Molly Gower, who is here, as well as her family who I 
would like to introduce: her parents, Mr. and Mrs. John and 
Mary Gower, and Cathy Muha, her sister, and Richard Muha, her 
nephew, who is a star lacrosse player at Richard Montgomery 
High School in Rockville, I wanted to get that on the record.
    And, of course, many thanks to all of my friends and 
colleagues who have been with me over the years, many of whom 
are here today, as well.
    Ensuring both the efficiency and security of our Nation's 
trade flows is a complex and challenging task in this post-9/11 
environment, and I seek the opportunity to contribute to that 
vital goal as a Commissioner.
    The Federal Maritime Commission's role as the independent 
body responsible for regulating ocean-borne transportation in 
the foreign commerce of the United States, places the Agency in 
a key position in America's commerce.
    The Commission fosters a fair, efficient and secure 
maritime transportation system through its policies and 
regulations, protects U.S. maritime commerce from unfair trade 
practices, works with shippers to ensure compliance with U.S. 
shipping laws, and assists in dispute resolution.
    I believe that my tenure at the U.S. Trade and Development 
Agency, my experience on the personal staff of a Commissioner 
at the U.S. International Trade Commission and my background as 
an attorney in private practice, together provide a strong 
foundation for successfully advancing the Federal Maritime 
Commission's mission.
    If confirmed, I will execute my duties with fairness and 
objectivity. This will include a careful review of the facts 
and applicable laws and regulations for all matters coming 
before the Commission.
    Additionally, it will be my ongoing responsibility to reach 
out to, and work with, the Commission's many important 
stakeholders, including shippers, marine terminal operators, 
ocean transportation intermediaries, private citizens and U.S. 
exporters and importers.
    To best serve these important constituencies, I look 
forward to collaborating with each of them, and to establishing 
strong relationships with you and the members of your staff in 
the service of our joint goals of ensuring the safety, 
security, and efficiency of our Nation's maritime commerce.
    Again, Mr. Chairman, and distinguished Members of the 
Committee, I appreciate the opportunity to appear before you 
today. Thank you for your, and your staff's, consideration of 
my nomination. I would be pleased to answer any questions that 
you have.
    [The prepared statement and biographical information of Mr. 
Kress follow:]

  Prepared Statement of Carl B. Kress, Nominated to be Commissioner, 
                      Federal Maritime Commission

    Mr. Chairman, and Members of the Committee, thank you for the 
opportunity to appear before you today.
    I am honored to have been nominated by the President to serve as a 
Commissioner on the Federal Maritime Commission, and to be considered 
by this Committee.
    I would like to take a moment to express particular thanks to my 
parents, retired Army Col. Carl Franklin and Roswitha Kress, for their 
guidance and support over the years. They were unfortunately not able 
to fly out from California today but are certainly here in spirit. I 
would also like to thank for her support my wonderful fiancee, Molly 
Gower, who is here today, as is her family, and my many friends and 
colleagues who have been with me over the years.
    Ensuring both the efficiency and security of our Nation's trade 
flows is a complex and challenging task in this post-9/11 environment, 
and I seek the opportunity to contribute to that vital goal as a 
Commissioner.
    Trade is a cornerstone of our Nation's economy, and maritime 
commerce makes up the lion's share. According to the American 
Association of Port Authorities, 99 percent of U.S. trade by weight and 
61 percent by value is carried by ocean-going vessels, and in 2006 more 
than 8 million U.S. jobs were related to port activities.
    The Federal Maritime Commission's role as the independent body 
responsible for regulating ocean borne transportation in the foreign 
commerce of the United States places the agency in a key position in 
America's commerce. The Commission fosters a fair, efficient and secure 
maritime transportation system through its polices and regulations, 
protects U.S. maritime commerce from unfair foreign trade practices, 
works with shippers to ensure compliance with U.S. shipping laws, and 
assists in dispute resolution. If confirmed, I look forward to applying 
my experience in international trade law and practice, and my years as 
a leader in Federal service, to ensuring the Commission's continued 
success in executing its important roles.
    I believe that my tenure at the U.S. Trade and Development Agency 
(USTDA), my experience on the personal staff of a Commissioner at the 
U.S. International Trade Commission (USITC), and my background as an 
attorney in private practice together provide a strong foundation for 
successfully advancing the Federal Maritime Commission's mission.
    I have worked for the past 8 years for the Federal Government on 
trade-related issues, at the USITC and USTDA. My 6 years at the U.S. 
Trade and Development Agency have been focused on the agency's mission 
of connecting U.S. exports of goods and services with economic 
development projects around the globe. As a Regional Director I am 
responsible for supporting economic development projects and pursuing a 
more level playing field for U.S. exporters in the Middle East and 
North Africa. Previously, as the agency's Chief of Staff, I took part 
in all aspects of leading and managing the agency.
    As Counsel to a Commissioner at the USITC, an independent 
regulatory agency like the Federal Maritime Commission, my 
responsibilities covered all aspects of the Commissioner's work, 
including application of laws and regulations to cases before the 
USITC. In private practice with a large international law firm I was 
responsible for legal and regulatory matters that would be applicable 
in reviewing disputes that come before the Commission.
    If confirmed, I will execute my duties with fairness and 
objectivity. This will include a careful review of the facts and 
applicable laws and regulations for all matters coming before the 
Commission. Additionally, it will be my ongoing responsibility to reach 
out to and work with the Commission's many important stakeholders, 
including shippers, marine terminal operators, ocean transportation 
intermediaries, private citizens, and U.S. exporters and importers. To 
best serve these important constituencies, I look forward to 
collaborating with each of them, and to establishing a strong 
relationship with you and the members of your staff, in the service of 
our joint goals of ensuring the safety, security, and efficiency of our 
Nation's maritime commerce.
    Again, Mr. Chairman and distinguished members of the Committee, I 
appreciate the opportunity to appear before you today, and thank you 
for your and your staff's consideration of my nomination. I would be 
pleased to answer any questions that you have.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name (including any former names or nicknames used): Carl 
Bernard Kress.
    2. Position to which nominated: Commissioner, Federal Maritime 
Commission.
    3. Date of Nomination: August 2, 2007.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: U.S. Trade & Development Agency, 1000 Wilson Blvd., 
        Suite 1600, Arlington, VA 22209.

    5. Date and Place of Birth: February 4, 1964; Ft. Belvoir, 
Virginia.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage): Not married; no 
children.
    7. List all college and graduate degrees. Provide year and school 
attended:

        LL.M, University of Hamburg, Germany, 1996.

        J.D., UCLA, 1995.

        B.A., U.C. Berkeley, 1987.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Regional Director for the Middle East, North Africa & South 
        Asia, U.S. Trade & Development Agency.

        Chief of Staff and Senior Advisor to the Director, U.S. Trade & 
        Development Agency.

        Counsel to the Commissioner, U.S. International Trade 
        Commission.

        Associate, McDermott Will & Emery.

        Law Clerk, Feddersen Laule Scherzberg & Ohle Hansen Ewerwahn.

        Summer Associate, McDermott Will & Emery.

        Research Assistant, UCLA Law Professor George Brown.

        Research Assistant, UCLA Law Professor Arthur Rosett.

        Research Assistant, UCLA Law Professor Susan French.

        Legislative Correspondent, U.S. Senator John Seymour.

        Precinct Director, San Francisco County Republican Central 
        Committee 1.

        Legislative Assistant, Mayer Brown & Platt.

        Legislative Assistant, U.S., Mayer Brown & Pratt.

        Legislative Assistant, U.S. Representative, Charles ``Chip'' 
        Passion, Jr.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.
    Member of the Board, Washington Foreign Law Society.
    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent, or 
religious organization, private club or other membership organization. 
Include dates of membership and any positions you have held with any 
organizations. Please note whether any such organizations restricts 
membership on the basis of sex, race, color, religion, national origin, 
age, or handicap.

        American Society of International Law. Member since 1997.

        Bar of the District of Columbia. Member since 1997.

        California State Bar. Member since 1996. Currently an inactive 
        member.

        Washington Foreign Law Society. Member since 2004. Member of 
        the Board of Directors since June 2007.

        St. Mark's Episcopal Church, Washington, D.C. Member since 
        2002.

        Appalachian Mountain Club. Member from 2003-2005.

        Phi Beta Kappa. Member since 1987.

        Friends of the National Zoo. Member 2002, 2006-2007.

        Washington Area Music Association. Member since 1999. Member of 
        Education Committee in 2001.

        The Mankind Project. Member since 1997. The Mankind Project is 
        a men's 501(c) educational organization. www.mkp.org.

        The Goethe Institute. Member since 1999.

        WAMU Radio. 2005-2006.

        Washington International Trade Association. Member 2000-2003.

    13. Have you ever been a candidate for and/or held a public office 
(elected, nonelected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt. No.
    14. Itemize all political contributes to any individual, campaign, 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        Contributions:

        Connie Morella For Congress Committee, $500.

        Bush-Cheney 2004 (Primary) Inc., $500.

        Bush-Cheney 2004 (Primary) Inc., $500.

        Bush-Cheney 2004 Compliance Committee Inc., $500.

    Participated in 72 Hour Task Force Legal Team for Republican 
National Committee, Nov. 2004.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.
        Phi Beta Kappa.
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        The U.S. Government and Post-Conflict Economic Reconstruction, 
        11 UC Davis J. Int'l L. & Pol'y 75 (2004).

        The 1996 Telekommunikationsgesetz and the Telecommunications 
        Act of 1996: Toward More Competitive Markets in 
        Telecommunications in Germany and the United States, 49 Fed. 
        Com. L.J. 551 (1997).

        Comment, Beyond Nahrstedt: Reviewing Restrictions Governing 
        Life in a Property Owners Association, 42 UCLA L. Rev. 837 
        (1995).

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or 
nongovernmental capacity and specify the date and subject matter of 
each testimony: None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    My tenure as a senior manager at the U.S. Trade and Development 
Agency (USTDA), my experience on the personal staff of a Commissioner 
at the U.S. International Trade Commission (USITC), and my background 
as an attorney in private practice together provide a strong foundation 
for successfully advancing the Federal Maritime Commission's mission of 
serving our Nation's maritime transportation needs. I have worked for 
the past 8 years for the Federal Government on trade-related issues, at 
the USITC and USTDA. In particular, during the past 6 years at USTDA my 
responsibilities have included the development and implementation of 
many transportation projects. My time as Chief of Staff of USTDA has 
also given me valuable experience in all aspects of leading and 
managing a Federal agency, such as personnel, administrative, 
information technology, budget, policy, and program matters. As Counsel 
to a Commissioner at the USITC, an independent regulatory agency like 
the Federal Maritime Commission, my responsibilities covered all 
aspects of the Commissioner's work, including application of laws and 
regulations to cases before the USITC. My time as an attorney with a 
large law firm also provided experience in evaluating legal and 
regulatory matters that would be applicable in reviewing disputes that 
come before the Commission.
    I seek this position because it would be an opportunity to build 
upon my prior experience in government service in trade, commerce, and 
law, and to apply that experience and my management skills to the 
challenges facing America's maritime transport system. Ensuring both 
the security and efficiency of our Nation's trade flows is a complex 
and challenging task in this post-9/11 environment, and I seek the 
opportunity to contribute my skills and experience to that vital goal. 
I grew up in a military family that emphasized the value of government 
service. I have taken that upbringing to heart by embarking on a career 
of civilian government service, and joining the Commission would be a 
significant opportunity to continue that tradition.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    As a Commissioner I would share with my colleagues on the Federal 
Maritime Commission full responsibility to lead and manage the 
Commission in a manner consistent with the highest standards of 
professionalism and effectiveness. Effective and efficient management 
of an organization's resources is fundamental--indeed crucial--to the 
accomplishment of its mission. Therefore, it is a critical 
responsibility of those charged with its leadership to devote whatever 
time and attention is required to achieve sound management. I would 
feel comfortable accepting that responsibility based on my considerable 
experience at two Federal agencies of similar size to the FMC. In 
particular, as the Chief of Staff of the USTDA and a member of its 
executive committee, I managed the budget formulation process, 
including the Congressional and OMB submissions; provided counsel to 
the Director on human resource planning, staffing, and organization; 
and through the executive committee provided recommendations to the 
Director on a host of management issues, such as contracting and 
finance. Consequently, if confirmed, I will work with my fellow 
Commissioners to effectively marshal the human, financial, information 
and other administrative resources available to achieve the goals, 
objectives, and programs of the Commission.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    If confirmed, I would focus in particular on three key management 
priorities that represent top challenges for any Federal agency: (1) 
the recruitment, development, leadership, and retention of human 
resources; (2) continued modernization of information technology 
systems; and (3) the need for accurate information, in this case 
regarding foreign trade and regulatory practices. Concurrent with 
taking on my responsibilities with respect to the Commission's 
programmatic activities, I would immediately focus my attention on 
thoroughly understanding what particular issues face the Commission in 
these areas and working to ensure excellence in Commission performance 
in all three.

        i. Attracting, training, leading, and retaining qualified and 
        dedicated employees are central to the Federal Maritime 
        Commission's operations, as a skilled and dedicated workforce 
        is the lifeblood of any organization. Like all Federal 
        agencies, the Commission must compete with the private sector 
        for the best available talent. It is thus essential that the 
        Commission be organized, managed, and led in such manner as to 
        attract and retain such talent, as well as provide its 
        employees with the tools with which to accomplish their 
        responsibilities as effectively as possible. This is 
        particularly critical today, as the Federal Government as a 
        whole faces the retirement of large numbers of key personnel.

        ii. The modernization of IT systems has been and continues to 
        be a key need of any agency, consistent with government-wide IT 
        and Internet priorities and requirements. A review of the 
        Federal Maritime Commission's recent Annual Reports and other 
        documents shows a strong and consistent campaign to modernize 
        the Commission's IT systems, in order to both increase online 
        access for external clients and improve internal operations. 
        Continuing this process of ensuring that the Commission's 
        systems are user-friendly, practical, widely-accessible, and 
        secure must be an ongoing high priority.

        iii. The Federal Maritime Commission's Mission includes 
        ``Protect[ing] U.S. maritime commerce from unfair foreign trade 
        practices and market-distorting activities.'' Critical to 
        achieving that goal is to gather accurate and comprehensive 
        information regarding foreign practices and legal and 
        regulatory structures, and to evaluate effectively that 
        information. This is essential in order to craft appropriate 
        action and make recommendations for ensuring the continued 
        competitiveness of the U.S. maritime transportation system. My 
        experience at both the USITC and USTDA showed the importance of 
        having accurate information regarding foreign activities, so 
        that the agencies could respond properly in pursuing a level 
        playing field for our Nation's international commercial 
        activities.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. Please include information related to retirement 
accounts.
    My 401(k) retirement account from my time with the law firm 
McDermott Will & Emery continues to be managed under the firm's plan. 
Neither I nor the firm has made any contributions to my account since I 
left the firm in January 1999.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, or practice with any business, association or 
other organization during your appointment? If so, please explain. No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Should any matter arise in which there appears to be a potential 
conflict, I would consult with the Commission's Designated Ethics 
Officer and, if necessary, develop an appropriate means of resolving 
such conflict.

                           C. LEGAL MATTERS.

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, County, or Municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistleblowers from reprisal for 
their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

                        RESUME OF CARL B. KRESS

Professional Experience
    U.S. Trade and Development Agency, Arlington, VA.
    Regional Director for the Middle East, North Africa, and South 
Asia, 2004-present.

        Responsible for developing and implementing all program 
        activities in the MENASA region, which includes most of the 
        Arab world and spans from Morocco to Bangladesh. Supervise 
        staff and contractors in the United States, India and Thailand 
        in identifying and pursuing projects that support host country 
        economic development and U.S. trade opportunities. Responsible 
        for obligating $8-$10 million in program funds each year for 
        economic development activities, including technical 
        assistance, feasibility studies, conferences, and reverse trade 
        missions. Projects are selected with particular attention to 
        sectors where foreign project sponsors seek partnerships with 
        U.S. providers of goods and services, such as in information 
        and communications technology (ICT), transportation, and 
        energy. Representative project examples include:

    <bullet> U.S.-India Aviation Cooperation Program. In collaboration 
            with the Federal Aviation Administration, the Indian 
            Ministry of Civil Aviation, and U.S. private sector 
            representatives, spearheaded formation of program dedicated 
            to coordinating U.S. public and private sector solutions to 
            Indian aviation sector development needs.

    <bullet> Transportation Solutions for South Asia Trade. Organized 
            conference focused on trade-related transportation 
            infrastructure project opportunities in South Asia.

    <bullet> Jordanian National Freight Information and Transportation 
            Hub Project. Supported pilot project using U.S. technology 
            to manage the documentation required for transporting cargo 
            into and out of Jordan's land border crossings and the Port 
            of Aqaba, which has resulted in significant efficiency 
            gains for truckers and shippers.

    <bullet> Making Connections in the Middle East & North Africa 
            Conference. Organized conference that highlighted ICT 
            project opportunities for U.S. suppliers and provided a 
            forum for high-level policy dialogue among U.S. and MENA 
            senior ICT officials.

    Chief of Staff and Senior Advisor to the Director, 2001-2004.
        Senior Bush Administration appointee in position encompassing 
        all aspects of leading a foreign assistance agency with a 
        yearly budget of $50-$60 million and a staff of 50 employees.

    <bullet> Member of executive management committee. Actively 
            involved with all administrative, program, and policy 
            decision-making in the agency, including:

                <bullet> review and approval of all agency program 
                activities world-wide;

                <bullet> management of budget formulation process, 
                including Congressional and Office of Management and 
                Budget submissions;

                <bullet> providing counsel to the Director on human 
                resource planning, staffing, and organization; and

                <bullet> providing recommendations through the 
                executive committee to the Director on all management 
                issues, including contracting, finance, IT, and 
                outreach.

    <bullet> Served in place of the Director as agency principal on 
            Secretary of Commerce-led trade missions and at other 
            events world-wide.

    <bullet> Served as agency's White House liaison.

    <bullet> Represented USTDA in meetings with U.S. and foreign 
            business leaders, foreign and domestic senior government 
            officials, and with Congressional staff.

    U.S. International Trade Commission, Washington, D.C.
    Counsel, Office of Commissioner Thelma J. Askey, 1999-2001.

        Advisor to the Commissioner on legal, policy and factual issues 
        relating to antidumping and countervailing duty investigations, 
        safeguard actions, and intellectual property rights protection 
        cases. Advised the Commissioner in preparation for votes, 
        hearings, and policy decisions.

    McDermott, Will & Emery, Washington, D.C.
    Associate, Federal Regulatory Practice Group, 1996-1999.

        Member of international trade practice group focused on the 
        following areas: GATT/WTO; customs; antidumping and 
        countervailing duty; and administrative law. Significant 
        responsibilities included:

    <bullet> Resolved customs issues, including tariff classification 
            and country of origin matters.

    <bullet> Prepared Antiboycott Law and Foreign Corrupt Practices Act 
            manuals for multinational corporation and delivered 
            presentations to corporate executives.

    Office of U.S. Senator John Seymour, Legislative Aide, Washington, 
D.C., 1991-1992.

        Issue Areas: International Trade, Transportation, and Inter-
        Governmental Affairs.

    San Francisco County Republican Central Comm., Precinct Director, 
San Francisco, CA 1990.

        Directed Get-Out-The-Vote program in San Francisco County.

    Mayer Brown & Platt, Legislative Assistant, Washington, D.C., 1989-
1990.

        Issues Areas: Tax and International Trade.

    Congressman Charles ``Chip'' Pashayan, Jr., Legislative Assistant, 
Washington, D.C., 1988-1989.

        Issue Areas: Social Security, Science and Technology, 
        Transportation, and Healthcare.
Education
    University of Hamburg, Germany, Faculty of Law--LL.M., 1996.

        Received master's degree in program for foreign attorneys. 
        Particular focus on telecommunications and comparative 
        contracts law. Degree and thesis awarded Magna Cum Laude.

    UCLA School of Law-- J.D., 1995.

        UCLA Law Review, Articles Editor.

        UCLA Pacific Basin Law Journal, Assistant Editor.

    UC Berkeley--B.A., History and Religious Studies, 1987.

        Phi Beta Kappa.

        High Distinction in General Scholarship.

        Religious Studies Department Highest Honors.

Professional Memberships

        Bars of the District of Columbia and California (inactive).

        American Society of International Law.

        Washington Foreign Law Society--Member of the Board.

    The Chairman. I thank you very much. And I'll call on the 
other nominee, Alan Paul Anderson.

     STATEMENT OF HON. A. PAUL ANDERSON, RENOMINATED TO BE 
     COMMISSIONER AND CHAIRMAN-DESIGNATE, FEDERAL MARITIME 
                           COMMISSION

    Mr. Anderson. Thank you, Mr. Chairman, Senator Stevens. My 
name is Paul Anderson of Florida. Thank you for scheduling this 
hearing today, it is truly an honor and a privilege to appear 
before you and the distinguished members of the Commerce, 
Science, and Transportation Committee.
    I'd like to express my sincere gratitude and appreciation 
to my senior Senator, Senator Bill Nelson, for his very 
gracious, kind introduction to the Committee.
    At this time, I'd like to introduce some of my family 
members that are here, Mr. Chairman. With me today is my mother 
and father, Captain Perry Anderson, United States Marine Corps, 
Retired, a distinguished veteran and his loving wife, Ann.
    Mom and Dad, thank you for all of your support, love and 
encouragement.
    My wonderful wife, Sarah, and our newest member of the 
Anderson clan, Jordan, who has taken to--learned early to take 
instructions well, he's been a wonderful baby today.
    I also want to recognize Commissioner Hal Creel, as a 
former staff member of this Committee, who is here today, as 
well as Commissioner Rebecca Dye, two of my colleagues on the 
Commission, and also, former Commissioner Ming Shu, who 
traveled here from California, as well as many of the staff and 
longtime personal friends that are here in the audience today. 
I really appreciate your support.
    As the independent regulatory agency responsible for 
overseeing ocean-borne transportation and the U.S. foreign 
commerce, the Federal Maritime Commission works to ensure a 
fair and competitive environment in which carriers, shippers, 
and other stakeholders can operate with the minimum of 
government intervention, while being protected from unfair 
foreign shipping practices.
    Working within its statutory framework, the Commission has 
developed a regulatory system that allows for necessary 
oversight with minimal disruption to the efficient flow of U.S. 
foreign commerce.
    As this Committee knows firsthand, maritime shipping is a 
dynamic and changing industry. During the past 5 years, the 
number of 20-foot containers coming into the United States has 
increased dramatically, from eleven and one-half million TEUs, 
to almost 20 million TEUs in 2006. This rapid increase in trade 
volume has highlighted the need to address improvements to our 
Nation's transport infrastructure.
    In addition, since September 11, 2001, we have recognized 
the importance of securing the ocean transportation system, 
while maintaining the free flow of trade.
    While the FMC is not on the front line of ensuring the 
security of our ocean-borne commerce, we are committed to 
helping frontline security agencies ensure the safe and 
efficient movement of cargo to and from the United States.
    In this regard, the Commission's oversight of ocean common 
carriers, marine terminal operators and its licensing and 
bonding of ocean transportation intermediaries is a vital link 
in the effort to protect our Nation's seaports.
    During my career, I have worked in several regulated 
industries, including 9 years in the maritime sector with an 
international, diversified transportation company, which 
operated Jones Act tankers, offshore supply vessels, tug and 
barges.
    This experience, combined with leadership and education, 
economic development and community service, has prepared me for 
my current role as FMC Commissioner, and has given me an 
understanding of the issues faced in the private sector, and 
the maritime transportation business. I've had the opportunity 
to learn firsthand, to work in a port, to work for a maritime 
company, the importance of our maritime transportation system 
to our Nation's economy.
    If confirmed by the Senate, I will continue to work to 
fairly and objectively fulfill the Federal Maritime 
Commission's statutory responsibilities, while making every 
effort to listen to the Commission's stakeholders, in order to 
reach balanced, and well-informed decisions.
    Thank you, Mr. Chairman, Senator Stevens, Members on the 
Committee, and your staff, for your time and consideration 
today. I appreciate the opportunity to appear before you today. 
If confirmed, I look forward to working with you and your staff 
as the Commission fulfills its responsibilities.
    I'll be happy to answer any questions. Thank you.
    [The prepared statement and biographical information of Mr. 
Anderson follow:]

    Prepared Statement of Hon. A. Paul Anderson, Renominated to be 
    Commissioner and Chairman-Designate, Federal Maritime Commission
    Mr. Chairman,

    Thank you for scheduling this hearing today. It is an honor and a 
privilege to appear before you and the distinguished Members of the 
Commerce, Science, and Transportation Committee. I would like to 
express my sincere gratitude to my Senator, Bill Nelson, for his 
introduction to the Committee.
    At this time I would like to introduce my family:
    My mother and father, Capt. Perry Anderson, Retired United States 
Marine Corps and distinguished veteran and his loving wife Ann. Mom and 
Dad thank you for all of your support, love and encouragement. My 
wonderful wife Sarah and our newest member of the Anderson clan, 
Jordan. I also want to recognize Commissioner Hal Creel who used to 
work on this Committee, former Commissioner Ming Hsu and many of the 
staff from the agency. Thank you all for your support.
    As the independent regulatory agency responsible for overseeing 
ocean borne transportation in U.S. foreign commerce, the Federal 
Maritime Commission works to ensure a fair and competitive environment 
in which carriers, shippers, and other stakeholders can operate with a 
minimum of government intervention, while being protected from unfair 
foreign shipping practices. Working within its statutory framework, the 
Commission has developed a regulatory system that allows for necessary 
oversight with minimal disruption to the efficient flow of U.S. foreign 
commerce.
    As this Committee knows first-hand, maritime shipping is a dynamic 
and changing industry. During the past 5 years, the number of 20-foot 
containers coming into United States ports has increased dramatically, 
from 11 and one-half million TEUs in 2001, to almost 20 million TEUs in 
2006. This rapid increase in trade volume has highlighted the need to 
address improvements to our Nation's transport infrastructure. In 
addition, since September 11, 2001, we have recognized the importance 
of securing our ocean transportation system, while maintaining the free 
flow of trade.
    While the FMC is not on the front line of ensuring the security of 
our ocean borne commerce, we are committed to helping front-line 
security agencies ensure the safe and efficient movement of cargo to 
and from the United States. In this regard, the Commission's oversight 
of ocean common carriers, marine terminal operators, and its licensing 
and bonding of ocean transportation intermediaries (``OTIs''), is a 
vital link in the effort to protect our Nation's seaports.
    During my career I have worked in several regulated industries, 
including 9 years in the maritime sector with an international, 
diversified transportation company. This experience, combined with 
leadership in education, economic development, and community service, 
has prepared me for my current role as FMC Commissioner, and has given 
me an understanding of the issues facing the private sector in the 
maritime transportation business. I have had the opportunity to learn 
first-hand the importance of our maritime transportation system to our 
Nation's economy.
    If confirmed by the Senate, I will continue to work to fairly and 
objectively fulfill the Federal Maritime Commission's statutory 
responsibilities, while making every effort to listen to Commission 
stakeholders in order to reach balanced and well-informed decisions.
    Thank you, Mr. Chairman and distinguished Senators on the Committee 
and your staff, for your time and consideration. I appreciate the 
opportunity to appear before you today. If confirmed, I look forward to 
working with you and your staff as the Commission fulfills its 
statutory responsibilities. I will be happy to answer any questions 
that you may have for me at this time.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name (Include any former names or nicknames used): Alan Paul 
Anderson.
    2. Position to which nominated: Federal Maritime Commissioner.
    3. Date of Nomination: August 2, 2007.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

    5. Date and Place of Birth: September 16, 1959; Beaufort, South 
Carolina.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Sarah Marlene Anderson, Head Coach, St. Thomas Aquinas High 
        School; Chase Kulp, 20; Jordan Paul Anderson, 1 day old.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Harvard University's John F. Kennedy School of Government, 
        1997, Program for Senior Managers in Government.

        University of Florida, Bachelor of Science, 1982 attended 1979-
        1982.

        Menlo College, Menlo Park, CA attended 1978.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Commissioner, Federal Maritime Commission.

        Vice President, Public Affairs and Government Relations, JM 
        Family Enterprises, Inc. 1994-2003.

        Director, Public Affairs, Hvide Marine, Inc. 1987-1994.

        Field Director, Bob Martinez for Governor, 9/86-12/86.

        Special Assistant, United States Senator Paula Hawkins, 1983-
        1984, 1984-1986.

        Press Secretary, U.S. Congressman Connie Mack Campaign, 1984.

        Van Poole for U.S. Senate Campaign, 1982.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service of positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        United States Senator Connie Mack Academy Advisory Board, 1989-
        2000.

        Broward Community College Board of Trustees, 1999-2003.

        Broward County Port Director Search Committee, 2003.

    11. List all positions held as an officer, director, trustee, 
proprietor, agent, representative, or consultant of any corporation, 
company, firm, partnership, or other business, enterprise, educational, 
or other institution with the last 5 years.

        Chairman, Board of Trustees, Broward Community College.

        Chairman, Board of Directors, Broward Alliance.

        Vice President, JM Family Enterprises, Inc.

        Southeast Toyota Distributors LLC.

        World Omni Financial Corporation, Inc.

        JM&A, Inc.

        Fidelity Insurance, Inc.

        Board of Directors, Giant Holdings, Inc.

        Board of Directors, Landmark Bank, 2000-2003.

        Broward Education Foundation, 2002-2003.

        Orange Bowl Committee, member, 2000-present.

        Tower Club, member, 1994-present.

        Broward Navy Days, Founder, member, Board of Directors, 1991-
        2003.

        Museum of Discovery & Science, member, Board of Directors, 
        1996-2003.

        Junior Achievement of South Florida, member, Board of 
        Directors, 1998-2003.

        Coral Ridge Country Club, 2000-present.

        U.S. Senator Connie Mack's Academy Advisory Board, 1989-2000.

        Public Affairs Council, member, Board of Directors, 1998-2003.

        Florida Chamber of Commerce, member, Board of Governors, 1998-
        2003.

        Florida Tax Watch, member, Board of Directors, 2000-2003.

        Deliver the Dream, Founding Board member, 2000-2004.

        Board of Directors, Public Affairs Council, 1995-2003.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

    Memberships:

        Broward Community College Board of Trustees, 1999-2003.

        Chair, Board of Trustees 1999-2000, Vice Chair, 2000-2001.

        Broward Alliance, member, Board of Directors, 1997-2003.

        Chair, Board of Directors, 2002-2003, Vice Chair, 2001-2002, 
        Secretary, 2000-2001, Treasurer, 1999-2000.

        Broward Education Foundation, Board of Directors, 2002-2003.

        Orange Bowl Committee, member, 2000-present.

        United States Propeller Club, Washington, D.C., 2003-present.

        Potomac Yacht Club, 2005-present.

        U.S. Naval Institute, 2000-2006.

        Smithsonian Institute, 1994-present.

        Tower Club, member, 1994-present.

        Broward Navy Days, Founder and member, Board of Directors, 
        1991-2003, member 2003-present.

        Deliver the Dream, Founding Board member, 2000-2004.

        Museum of Discovery & Science, member, Board of Directors, 
        1996-2003.

        Junior Achievement of South Florida, member, Board of 
        Directors, 1998-2003.

        Coral Ridge Country Club, 2000-present.

        U.S. Senator Connie Mack's Academy Advisory Board, 1989-2000.

        Public Affairs Council, member, Board of Directors, 1998-2003.

        Florida Chamber of Commerce, Board of Governors, 1998-present.

        Florida Tax Watch, member, Board of Directors, 2000-2003.

        George W. Bush for President Finance Committee, 2000.

        Jeb Bush for Governor Finance Committee, 1994, 1998, 2002.

        Floridian's for School Choice, member, Board of Directors, 
        1999-2003.

        S.W.I.M. Fort Lauderdale, member, Board of Directors, 2000-
        2003.

        Fort Lauderdale Chamber of Commerce, member, Board of Trustees, 
        1995-2000.

        American Waterways Operators, Chair, Public Affairs Committee, 
        1992-1994.

        Port Everglades Association, member, 1987-1994.

    13. Have you ever been a candidate for and/or held public office 
(elected, nonelected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount and whether you are 
personally liable for that debt.
    I have never been a candidate for public office.
    14. Itemize all political contributions to any individual, 
campaign, organization, political party, political action committee, or 
similar entity of $500 or more for the past 10 years. Also, list all 
offices you have held with, and service rendered to, a state or 
national party or election committee during the same period.

        Tom Gallagher for Senate Campaign, $1,000.

        Tom Gallagher for Chief Financial Officer Campaign, $500.

        Jeb Bush for Governor: 1994--$500; 1998--$1,000; 2002--$1,000.

        George Bush for President, $2,000.

        Straight Talk Express PAC, 2006--$1,000.

        Bush Cheney 2004, $250.

        Charlie Crist for Governor, $500.

        Tom Gallagher for Governor, $500.

    I was an Alternate Delegate to the 1996 Republican National 
Convention representing Broward County, Florida. I served as Finance 
Co-Chair of the Jeb Bush for Governor Finance Committee on his 1994, 
1998 and 2002 campaigns. I served on U.S. Senator Connie Mack's Finance 
Committee in 1998 and 1994. Additionally, I served on Tom Gallagher for 
Insurance Commissioner Finance Committee in 2000 and Tom Gallagher for 
Chief Financial Officer in Florida in 2002. In my capacity as Vice 
President of Government Relations I have participated in the RNC 
Eagle's and Team 100 program, the National Republican Congressional 
Committee, the Democratic Congressional Campaign Committee, the 
Democratic Senatorial Campaign Committee, the Republican Senatorial 
Campaign Committee, the Republican Governor's Association, the Southern 
Legislative Conference, the National Conference of State Legislators 
and the American Legislative Exchange Council. I served as Treasurer of 
the JM Family Associates Political Action Committee from 1994-2002.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        United States Coast Guard Distinguished Civilian Award, 2000.

        Paul Anderson Appreciation Day, Broward County Commission, 
        December 10, 2002.

        Broward Navy Days Freedom Award, 1997.

        Public Affairs Institute, First Fellow, 2002.

        Outstanding Young Men of America, 1987.

    Recognized as one of South Florida's most powerful and important 
business and civic leaders as featured in the ``Power Issue'' of South 
Florida CEO, April 2003.
     South Florida CEO magazine's June 2002 featured Business 
Executive; University of Florida College of Journalism's Communigator 
Magazine Spring 2006 featured Alumni.
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed: None.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or 
nongovernmental capacity and specify dates and the subject matter of 
each testimony: None.
    18. Given the current mission, major programs, and major operation 
objectives of the department/agency to which you have been nominated, 
what in your background or employment experience do you believe 
affirmatively qualifies you for appointment to the position for which 
you have been nominated, and why do you wish to serve in that position?
    I am currently serving as Commissioner of the Federal Maritime 
Commission since 2003. Previously, I served for 10 years in the senior 
management of JM Family Enterprises, a multi-billion dollar corporation 
and one of the largest privately held corporations in America. I 
believe the combination of my education and career has qualified me to 
serve on the Federal Maritime Commission. My 9 years in the maritime 
industry, where I worked for a diversified international maritime 
transportation company with tanker, offshore supply vessel, tug and 
barge and tugboat operations, combined with my involvement with major 
maritime trade associations has given me the necessary experience to 
serve in the capacity as Commissioner. Additionally, my extensive 
leadership in the community has given me a strong belief in public 
service and giving back to community and country.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    I will faithfully execute the responsibilities of a Commissioner 
and the goals set forth by the Agency and the laws enacted by Congress 
for the Commission. Having served in the capacity as an officer of over 
two dozen private and public corporations, educational institutions, 
associations and other organizations has fully prepared me to 
successfully manage the agency. I was elected Chairman of the Board of 
Trustees of one of America's largest community colleges with over 
50,000 students and a $120 million annual budget. I also was elected 
and served as Chairman of the Board of Directors of The Broward 
Alliance, a public-private agency and one of the leading economic 
development agencies in the state of Florida. I also served in the 
executive management of JM Family Enterprises, LLC; ranked by Forbes as 
the 13th largest privately held company in the United States. During 
this time I directly managed a multi-million dollar annual budget for 
almost 10 years. Additionally, I have had extensive experience with 
developing and managing budgets and will use my professional and 
leadership experience in managing the agency.
    20. What do you believe to be the top three challenges facing the 
department/agency and why?
    Managing the agency's responses to changes taking place in global 
maritime transportation; the tremendous growth of international trade 
and the stress on the agency's ability to fulfill its mission under the 
press of increased business and regulation; dealing with the changes 
taking place between the Untied States' trading partners and their 
changing regulations.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I have a retirement annuity earned for service at JM Family 
Enterprises, LLC. This annuity will commence at age 65 in the amount of 
[redacted] per month.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? None
    3. Indicate any investments, obligations, liabilities, or other 
relationships, which could involve potential conflicts of interest in 
the position to which you have been nominated: None
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: Not that I am aware of.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    Yes. In my position as Vice President of Public Affairs for JM 
Family Enterprises my responsibility was to advocate on behalf of the 
company at the local, state and Federal Government positions consistent 
with the goals of the corporation. I participated in the advocacy of 
issue related campaigns in the ballot initiative process in Florida and 
the Florida legislative process. These include pro tort reform 
legislation that has been introduced in the Florida legislature over 
the past decade. I was a proponent of anti-tax increases in tax reform 
legislation during the 2002 Florida legislative session and a 2002 
ballot initiative; I was a leading advocate and leader for increase in 
state funding for Take Stock in Children, a mentoring program for at 
risk youths over the past decade in the Florida Legislature; I was an 
advocate for increase in state funding for the Florida Community 
College system; I participated in advocacy for workforce development 
and economic development in the Florida legislature; and I played a 
leadership role in the expansion for the Fort Lauderdale-Hollywood 
International Airport.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to above items.
    While I am not aware of any conflicts, if one were to arise I would 
seek advice of agency counsel and if advised would recluse myself or 
take appropriate actions to resolve the conflict.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? None that I am aware of.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any violation other than a minor traffic offense? No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: Did not answer.

                   D. RELATIONSHIP WITH THE COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistleblowers from reprisal for 
their testimony? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

                       RESUME OF A. PAUL ANDERSON

Professional Experience
    August 2003-Present--Federal Maritime Commission--Washington, D.C.
    Commissioner

        Nominated by President George W. Bush on April 10, 2003 and 
        unanimously confirmed by the U.S. Senate on May 22, 2004 to 
        serve a 5-year term as Commissioner of the Federal Maritime 
        Commission. Responsibilities include voting on issues impacting 
        the trillion dollar international maritime industry; public 
        speaking and representing the Agency before industry groups, 
        associations and corporations; and working with industry and 
        government leaders. The Commission, an independent Federal 
        regulatory agency, is responsible for implementing the Ocean 
        Shipping Reform Act of 1998 and for setting maritime policy on 
        the regulation of the international trades of the United 
        States. Additional responsibilities include: management of 
        Agency operations, budget and operations; business planning and 
        visioning; making decisions and determinations in the 
        disposition of docketed cases; rulemaking; and ensuring the 
        efficient, equitable, and expeditious resolution of all other 
        matters arising under statutes administered by the Commission.

    Sept. 1994-April 2003--JM Family Enterprises, Inc.--Deerfield 
Beach, FL
    Vice President Public Affairs

        Responsibilities included advocacy, on behalf of the company 
        and CEO, for positions consistent with the goals of the 
        corporation before local, state, Federal and international 
        governments. Developed and managed a state and national 
        government relations program including a corps of state and 
        Federal lobbyists, while also serving as an advisor to the 
        Chairman and CEO on strategic policy issues impacting the 
        company's operations. Reported directly to the Chairman and CEO 
        of this $7.7 billion diversified automobile company ranked by 
        Forbes magazine as the 15th largest privately held corporation 
        in the United States. Among the company's core businesses are 
        financial services, automobile distribution, automobile lease 
        finance, insurance, chemical manufacturing, automobile retail 
        sales and parts distribution. A primary responsibility was the 
        management of a diverse range of legislative efforts in 
        multiple state legislatures and in Congress in support of the 
        company's strategic goals resulting in millions of dollars of 
        operational and financial efficiencies. In support of these 
        efforts, I managed lobbyist, law firms and consultants in 
        multiple states and Washington, D.C. Tasked by the CEO to 
        develop strategic relationships with national and Florida 
        corporate, government and community leaders while implementing 
        a national branding of the company with these leaders. 
        Additional duties required shared responsibility for a national 
        community relations program and philanthropy. Served on 
        business, professional and nonprofit Boards of Directors in 
        support of the company's goals and objectives.

    Jan. 1987-Sept 1994--Hvide Marine, Inc.--Fort Lauderdale, FL
    Director. Public Affairs

        Responsible for all government, regulatory, political and 
        public affairs for this international diversified international 
        marine transportation company which operates tankers, offshore 
        supply vessels, tug and barge and tugboats in the international 
        and domestic maritime markets. The company now operates as 
        Seabulk, Inc. Position required Congressional testimony and 
        regulatory agencies, business and financial presentations, 
        coordination of business development projects. During tenure 
        also held positions of National Manager of Marketing and 
        Assistant to the President Additional responsibilities included 
        corporate business and strategic planning, community relations, 
        preparation for board meetings, crisis management team and 
        trained facilitator. Developed, managed and implemented a 
        national branding, marketing and sales campaign for this start-
        up subsidiary, American Tank Testing, Inc., which successfully 
        concluded with the sale of the company to a fortune 200 
        company. Required developing and managing national sales force, 
        corporate and convention sales strategy, and implementation of 
        government procurement program.

    Sept. 1986-Jan. 1987--Bob Martinez for Governor--Miami, FL
        Field Director--South Florida

    May 1986-Sept 1986--Tom Gallagher for Governor--Miami, FL
        Campaign Travel Aide/Assistant Press Secretary

    Nov. 1984-June 1986--United States Senator Paula Hawkins--Miami, FL
        District Representative/Special Assistant

    June 1984-Nov. 1984--United States Congressman Connie Mack--Fort 
Myers, FL
        Press Secretary/Assistant Campaign Manager

    Dec. 1982-June 1984--United States Senator Paula Hawkins--
Washington, D.C.
        Special Assistant

Education
    1982--University of Florida, College of Journalism and 
Communications--Gainesville, FL
        Bachelor of Science, Public Relations, Minor in Marketing

    1997--Harvard University's John F. Kennedy School of Government--
Cambridge, MA
        Senior Managers in Government Program

        The Senior Managers in Government program provides senior 
        executives in the Federal Government, and private sector with 
        the cutting-edge skills needed for their continued success. 
        Renowned Kennedy School faculty members help participants 
        enhance the core leadership skills needed to direct 
        organizations with governmental and public sector concerns. The 
        course focuses on several complex management issues faced by 
        senior managers including managing risk, managing change, 
        negotiation, leadership and policy analysis.

    2001--Public Affairs Institute--Washington, D.C.

        Program for Senior Public Affairs Executives

        This is a three-year program for senior executives from the 
        public and private sector in the study of public affairs, 
        crisis management, issues management and Federal and state 
        legislative program management. Program's first distinguished 
        fellow.
Recognition and Awards
        Public Affairs Institute, First Fellow, 2002.

        Paul Anderson Appreciation Day, Broward County Commission, 
        December 10, 2002.

        United States Coast Guard Distinguished Civilian Award, 2000.

        Broward Navy Days Freedom Award, 1997.

        Outstanding Young Men of America, 1987.

        Recognized as one of South Florida's most important business 
        and civic leaders as featured in the ``Power Issue'' of South 
        Florida CEO, April 2003.

        South Florida CEO magazine's June 2002 featured Business 
        Executive.

        University of Florida College of Journalism's Communigator 
        Magazine Spring 2006 featured Alumni.
Leadership Experience

1999-2003                          Broward Community College (BCC),
                                    Chairman, Board of Trustees. This is
                                    a gubernatorial appointment and
                                    senate confirmed position by
                                    Governor Jeb Bush in 1999. Upon my
                                    appointment I was elected and served
                                    as Chairman from 1999-2001, and Vice
                                    Chairman from 2001-2002, of the
                                    fifth largest community college in
                                    the United States with five
                                    campuses, 50,000 students and a $100
                                    million plus annual budget. During
                                    my tenure I was responsible for the
                                    policy oversight of the College's
                                    reaffirmation of accreditation, the
                                    hiring process of a new President, a
                                    collective bargaining agreement with
                                    faculty union, and growth of the BCC
                                    Foundation.
1999-2001                          Broward Alliance, Inc., Chairman,
                                    Board of Directors. This multi-
                                    million dollar corporation is
                                    Broward County's (a county of 1.6
                                    million citizens) private-public
                                    partnership for economic
                                    development. Among the
                                    accomplishments under my leadership
                                    were leading a search for a new CEO,
                                    a renewed commitment for public
                                    funding from county government, and
                                    the growth of private investment by
                                    corporate partners. Among other
                                    successes were the implementation of
                                    a minority business development
                                    program, expanded international
                                    trade development program and a
                                    partnership for a regional marketing
                                    plan for South Florida's economic
                                    development. I also held the
                                    positions of Secretary, Treasurer
                                    and Vice Chairman from 1996-1999.
1998-2003                          Public Affairs Council, Board of
                                    Directors. The Public Affairs
                                    Council is the leading association
                                    for public affairs professionals.
                                    Its mission is to advance the field
                                    of public affairs and to provide
                                    tools and resources that enable
                                    public affairs executives and
                                    managers to achieve their business
                                    and professional goals. I also
                                    served on the Council's
                                    accreditation committee.
2000-2002                          Florida Community College Trustees
                                    Association, Vice Chairman,
                                    Secretary/Treasurer. During my
                                    tenure I served as a leading
                                    advocate of Florida Community
                                    College Trustees and Florida's
                                    community college system before the
                                    state legislature and
                                    administration. My efforts resulted
                                    in legislation increasing funding
                                    and matching dollars for Florida's
                                    28 community colleges.
2000-2003                          Giant Holdings, Inc., Landmark Bank,
                                    NA, Board of Directors. Giant
                                    Holdings is a holding company for
                                    Landmark Bank NA, a community bank
                                    in Broward County, Giant Bank, an
                                    Internet component of Landmark; and
                                    Web United, Inc., a web hosting and
                                    technology company.
2000-2003                          Take Stock in Children, Operating
                                    Committee. At the request of
                                    Governor Jeb Bush and the Chairman
                                    of Take Stock. I served on the
                                    Operating Committee of this
                                    nationally recognized statewide
                                    mentoring and scholarship
                                    organization. My primary
                                    responsibility was managing
                                    legislative efforts which secured
                                    state appropriations totaling over
                                    $15 million dollars for this
                                    organization serving Florida's at-
                                    risk community.
2000-2004                          Deliver the Dream, Founding Member,
                                    Board of Directors. At the request
                                    of JM Family's CEO I served as a
                                    founding member of the Board of
                                    Directors and on the Finance and
                                    Board Development Committees of this
                                    nonprofit organization serving
                                    families in crisis.
1991-2003                          Broward Navy Days, Founding Member,
                                    Board of Directors. Co-founded this
                                    501(c)3 naval support organization
                                    which has grown to the 2nd largest
                                    fleet week in the United States
                                    celebration honoring U.S. naval
                                    services in the United States.
1999-2003                          Jeb Bush Classic, Co-Chairman.
                                    Successfully developed this golf
                                    tournament into a five-city,
                                    statewide event that has raised over
                                    $5 million for MS (muscular
                                    sclerosis).
2000-2004                          Orange Bowl Committee, Member. The
                                    Orange Bowl Committee is a not-for-
                                    profit, 317-member, all-volunteer
                                    organization supporting and
                                    producing activities and events
                                    which enhance the image, economy,
                                    and culture of South Florida Among
                                    the OBC core events are the Orange
                                    Bowl Festival, FedEx Orange Bowl and
                                    World-Class Halftime Show, the
                                    MetroPCS Orange Bowl Basketball
                                    Classic, the Orange Bowl PATCH Beach
                                    Bash presented by the City of
                                    Hollywood, the Miller Light Orange
                                    Bowl Tailgate Party, Boston Market
                                    Orange Bowl Youth Football
                                    Championships and the Orange Bowl
                                    Cheer & Dance Championships.
1997-2003                          Florida Chamber of Commerce, Board of
                                    Governors.
2000-2003                          Florida Tax Watch, Board of
                                    Directors.
1996-2003                          Museum for Discovery & Science, Board
                                    of Directors.
2001-2003                          Broward Education Foundation, Board
                                    of Directors.
1995-2000                          Fort Lauderdale Chamber of Commerce,
                                    Board of Trustees.
1998-2003                          Junior Achievement of South Florida,
                                    Board of Directors.
1990-1994                          American Waterways Operators Board of
                                    Directors; Chairman, Public Affairs
                                    Committee.
1988-1994                          Port Everglades Association, Board of
                                    Directors.
 


Government Experience


1990-1994                          Broward County Consumer Affairs Board
1989-2000                          United States Senator Connie Mack
                                    Academy Advisory Board
 


    The Chairman. I thank you very much, Mr. Anderson.
    Before we proceed, I'd like to recognize and congratulate 
Molly Gower. You brought your whole family, I would assume, 
your potential in-laws are in your favor.
    [Laughter.]
    Mr. Kress. I certainly hope so. The signals are good so 
far.
    The Chairman. And we are most honored to have in our midst, 
a war hero. Welcome, sir, we salute you.
    If I may ask, Mr. Kress, you have had good experience in 
the U.S. Trade and Development Agency, how can you use that 
experience in the maritime world?
    Mr. Kress. Thank you.
    The focus of the U.S. Trade and Development Agency is on 
supporting economic development projects overseas, and 
supporting U.S. exports of goods, services and technologies. 
And part of that is transportation projects, so I have worked 
on a number of transportation projects, including in the 
maritime area. I've had the opportunity to visit ports, see 
equipment in action and so on, so I'm familiar with a lot of 
the port development issues that are being faced in developing 
countries and middle-income countries that we work with. These 
issues are actually very similar to those that we're dealing 
with here, in terms of congestion, security, environment and so 
on.
    So, specifically, the projects that I've worked on in that 
area will put me in good standing for examining the issues 
here. Also as a general matter, in terms of looking at trade, 
understanding the needs of U.S. manufacturers, and how the 
trade flows are going in and out, I think this experience gives 
me a strong background for executing my responsibilities, if 
confirmed, as a Commissioner.
    The Chairman. I ask that question because there are some 
who suggested that you were not a sailor, but you do have 
experience in the maritime world.
    Mr. Kress. Yes.
    The Chairman. I thank you very much.
    And if I may ask Mr. Anderson, you're scheduled to become 
Chairman of the Commission or you have been nominated for that 
position. We are now looking at the European Commission's 
impending antitrust immunity guidelines for the liner shipping 
industry. What impact will that have on U.S. antitrust 
regulation? And what vision do you have for the FMC moving 
forward on that?
    Mr. Anderson. Thank you, Mr. Chairman. As you referenced, 
the European community has been involved for several years with 
deregulating the liner antitrust immunity in the European 
community. That is scheduled to take place in October of 2008, 
when that will become final. The--they are still engaged in the 
EU in promulgating the final regulations that will replace 
their set of antitrust immunity regulations that they are 
repealing.
    I think that it's very important for the United States, as 
a leader in international trade in the world, to examine, after 
time, the results of their very bold move to remove this long-
standing antitrust immunity, that both the EU and the United 
States have had in place in our foreign-borne commerce. And I 
think that it would be prudent for us to let them go through 
with their process, as a grand experiment of deregulating the 
industry.
    It's very difficult to predict what may or may not happen 
in the industry, and that's the reason I'm suggesting that we 
may be very well served by examining and looking at what they 
experience over the next several years in their process, before 
we make any changes to our regulations.
    But as you know, we enforce the laws enacted by this body 
and the U.S. House, and if instructed to make changes in our 
regulatory rules, we will do so.
    The Chairman. I thank you very much, Mr. Anderson.
    Senator Stevens?
    Senator Stevens. What do each of you perceive to be your 
role as members of the Commission, with regard to the safety of 
our ports?
    Mr. Kress. The Commission works cooperatively with Customs 
and Border Protection and Naval Intelligence and the Coast 
Guard and other agencies that are directly working on security 
matters. The Commission is in a position to support the 
integrity of the supply chain, through licensing various actors 
in the supply chain, and so has an opportunity to make sure 
that we understand who is working and moving goods in and out 
of the United States, and can share that information with other 
agencies to make sure that there is a secure and safe process.
    The Commission works particularly closely with Customs and 
Border Protection, there is an MOU with the Customs Service for 
information sharing, and otherwise works cooperatively with the 
other agencies to make sure that procedures that the ports and 
the shippers are following are as secure as possible.
    Senator Stevens. I thank the Chairman for bringing both up 
at the same time. I think it's better to have you each answer 
the same question, if you would?
    Mr. Anderson. Yes, sir. Thank you. That's a very 
appropriate question, and I am just going to expand on some of 
the areas that Mr. Kress answered.
    The Commission, while we're not sitting as a front-line 
security agency, we do have a role in the security of our 
intermodal supply chain in the marine transportation sector. We 
license and bond all of the people that are handling cargo for 
the large shippers in the world, both international and 
domestic. And as such, we have area representatives that are in 
our field offices around the country, that are working to 
examine whether or not these companies that are filing for a 
license at the Commission, if they do have the necessary 
experience. We're checking out their offices to make sure they 
are who they say they are.
    And that particular area, I think that's an area that the 
Commission can continue to expand upon, and an area that, you 
know, we should be very engaged with the people that are 
handling the paperwork for the cargo that's coming in and out 
of our country. We do the best that we can with a very limited 
staff and field offices. And, I think it's a very important 
role.
    We have, as Mr. Kress mentioned, a Memorandum of 
Understanding. We do joint investigations with Customs, Naval 
Intelligence, and the Coast Guard. And I have spoken with your 
staff about some opportunities where we might be able to 
increase our areas of cooperation with those agencies to do 
more in the area of security.
    Senator Stevens. That sounds good.
    We have visited periodically ports of the United States, 
such as Los Angeles, Seattle, and New York. Do you plan to 
visit some of these monster ports of ours?
    Mr. Anderson. I'll take first crack at that. I am a big 
believer in going out and kicking the tires and actually 
getting in the ports. I've been to numerous ports around the 
country. I've been to LA/Long Beach, just right after my first 
confirmation and being sworn in. I've been out there multiple 
times. I am from the Southern California area, originally. 
Those two ports make up 40 percent of all the containers coming 
into and out of the country.
    Additionally, as I mentioned, I worked in the largest 
container port in Florida, which is Port Everglades in Fort 
Lauderdale. I have visited numerous ports. It's very important 
for us to see the actual workings of the Port Authorities, not 
only their security side, but the transportation infrastructure 
that facilitates the movements of cargo and intermodal 
transportation. I've done that as well with MARAD 
representatives. We visited, not only marine terminals, but 
rail terminals, and also met with truckers and all of the 
interested parties that move the goods in and out of our ports. 
Because those are all critical in the entire supply chain of 
our country.
    Senator Stevens. Mr. Kress?
    Mr. Kress. Yes. I would agree wholeheartedly with Mr. 
Anderson there. And particularly, looking at my past experience 
with the U.S. Trade and Development Agency, of going out and 
actually seeing the projects and project proposals in action or 
where they are likely to happen, including who the actors are, 
is very different from hearing presentations in the office and 
receiving e-mails and so on.
    So, I would see going out and visiting those ports to be a 
critical opportunity to meet with all the right people, meet 
the different interested parties, see the infrastructure, and 
so on, to be able to make better decisions on all the matters 
that come before the Commission.
    Senator Stevens. Well thank you. Having visited those 
areas, I came to the conclusion that while we're developing the 
kind of knowledge we need to run the ports, we really have not 
done much about the transportation infrastructure that 
interlocks with those ports. For instance, coming out of the 
Los Angeles Port, there is just one railroad with one track.
    You're right, 40 plus percent of the goods for the whole 
country come through that port, but there's only one railroad 
and one track. And no one's ever paid much attention to it, but 
it does seem to me that someone ought to get on top of that and 
try to figure out how to change that. But the technology-base 
for the ports is all on the water. The mainland side of these 
ports have just been neglected. I don't know if that comes 
under the jurisdiction of the FMC, but I put it on the table 
for you to consider. I do think the technology-base, handling 
the goods once they're on shore, is as important as that, 
dealing with unloading the cargo and loading the cargo onto 
those islands.
    But, I do thank you for your willingness to serve. We look 
forward to seeing you from time to time here and we should 
have, I think, a periodic report from your Commission. And I 
wish you well.
    Thank you, Mr. Chairman.
    The Chairman. I thank you, Mr. Kress and Mr. Anderson, for 
your willingness to serve. And, may I announce that the record 
will be kept open for 10 more days, if you do have any changes 
you'd like to make in your statements or your responses, feel 
free to do so. And we will be submitting further questions, if 
we may, and we look forward to your responses.
    Thank you very much, and the hearing is adjourned.
    [Whereupon, at 3:30 p.m., the hearing was adjourned.]

                            A P P E N D I X

  Response to Written Question Submitted by Hon. Daniel K. Inouye to 
                             Carl B. Kress

    Question. In your testimony you mention your experience with port 
related matters as an employee of the U.S. Trade and Development 
Agency. What specific experience do you have with the shipping 
industry?
    Answer. Throughout my 6 years at the U.S. Trade and Development 
Agency (USTDA), first as Chief of Staff and Senior Advisor to the 
Director and later as Regional Director for the Middle East, North 
Africa, and South Asia (MENASA), I have worked on a wide variety of 
matters designed to address shipping industry needs, primarily in the 
areas of security, safety, and supply chain efficiency. If I am 
confirmed, I plan to draw upon this experience as I work with the 
shipping industry to ensure a fair, secure, safe, and efficient 
maritime system.
    As I indicated in my testimony, USTDA's mission is to support 
economic development overseas through the application of U.S. goods, 
services, and technologies, thereby spurring economic growth overseas 
and bolstering U.S. exports and supporting U.S. jobs. USTDA projects 
are designed to create mutually beneficial partnerships, where foreign 
project sponsors, such as shipping and transportation entities and 
customs and port authorities, seek to work with U.S. companies and U.S. 
Government technical agencies like the Maritime Administration, the 
National Oceanographic and Atmospheric Administration, and the 
Department of Homeland Security (DHS). All such activities have at 
their core the goal of facilitating infrastructure improvements 
overseas, with a particular focus on projects whose sponsors are 
especially interested in U.S. solutions for project implementation. 
USTDA accomplishes its mission through funding various types of 
activities, such as project-specific feasibility studies and technical 
assistance, and conferences and Orientation Visits (reverse trade 
missions) that provide opportunities for foreign project sponsors to 
gain exposure to U.S. technical expertise and technology.
    As Chief of Staff and Senior Advisor to the Director from 2001-
2004, I was responsible for ensuring the execution of the Director's 
policies. This involved participating in the development of all 
projects and initiatives, taking part in their planning and final 
approval, and working with program staff to facilitate their successful 
implementation. Subsequently, as Regional Director for MENASA, I was 
directly responsible for developing and implementing all activities 
within that region.
    Following 9/11, the Director called for a sharpened focus on 
transportation sector security and safety. To ensure effectiveness in 
implementing this policy, we immediately began working with the U.S. 
Coast Guard, the Customs Service, and the U.S. private sector in 
targeting opportunities to support requests from our trading partners 
for information about U.S. security requirements, and about potential 
U.S. solutions for meeting their security, safety and supply chain 
efficiency needs. Because of the magnitude of U.S. trade with Asia, we 
increased shipping sector activities in that region. I worked directly 
with all regional teams in developing and implementing projects under 
this agency priority initiative.
    For example, we supported the Secure Trade in the APEC Region 
(STAR) Initiative that was launched following 9/11, by sponsoring a 
conference in Thailand to help APEC country companies and policymakers 
develop new approaches to trade security and safety. Conference session 
topics included maritime and supply chain security, which focused on 
methods of expediting the movement of goods and people while adding new 
security layers. Senior representatives of the International Maritime 
Organization, World Customs Organization, U.S. Customs Service and 
Coast Guard, the Global Alliance for Trade Efficiency, and senior 
government officials and company representatives from all APEC 
countries took part.
    Further supporting STAR objectives, we established the Secure Trade 
in the APEC Region--Bangkok/Laem Chabang Efficient and Secure Trade 
Project, which supported a pilot for a secure supply chain between the 
Ports of Laem Chabang, Thailand and Seattle, Washington. This pilot 
showed the feasibility of establishing a secure, end-to-end supply 
chain using existing technology and processes between those two ports.
    We also funded technical assistance to develop STAR-related 
seafarers' identification systems in the Philippines and Indonesia, 
which we considered to be particularly important projects because these 
two countries are the world's top suppliers of seafarers to ocean-going 
carriers. Our assistance supported the countries' efforts to implement 
improved national Seafarers Identity Document Systems that would comply 
with International Labor Organization requirements.
    As a further targeted effort to improve shipping safety and 
security, we provided ISPS Code training to customs, port, and shipping 
officials in APEC countries to support human capacity building and spur 
appropriate infrastructure improvements necessary under their ISPS Code 
obligations. ISPS Code compliance was likewise a prominent topic at 
USTDA's Transportation Security Forum Conference in Cairo, Egypt in 
2004, which was put on in cooperation with DHS and was supported by the 
International Federation of Freight Forwarders Associations and the 
World Customs Organization. The event brought together public and 
private sector representatives from Africa, the Middle East, and South 
Asia to review U.S. and international trade security initiatives, 
identify ongoing trade and transport security projects in the 
participating countries, and highlight technologies and procedures 
aimed at facilitating more secure and efficient movement of goods.
    We also developed and implemented two Orientation Visits that 
exposed foreign shipping and port officials to U.S. equipment, 
facilities, and procedures in Louisiana, Texas, and California. The 
first brought a Chinese delegation to the United States to view inland 
river operations in the Mississippi Delta and the Los Angeles and Long 
Beach Port complexes. U.S. participants included American Commercial 
Lines, LLC, Gulfship Maritime, Inc., and Transoceanic Shipping Company, 
Inc. The second visit brought delegates from Brazil, Columbia, and 
Ecuador to Louisiana and California to explore U.S. solutions for their 
modernization and expansion plans. U.S. participants in this activity 
included Gulfship Maritime, Inc. and Intermarine Inc., as well as the 
Ports of Houston, Long Beach, Los Angeles, New Orleans, and South 
Louisiana.
    In 2004, I became the Regional Director for the MENASA Region and 
took direct responsibility for developing programs that address 
shipping industry interests in my countries. For example, immediately 
upon taking over the region, I began planning the USTDA Transportation 
Solutions for South Asia Trade conference in Mumbai, India, which 
highlighted best practices for intermodal transportation, with 
presentations by U.S. service and technology providers. Participants 
included senior officials from the U.S. Department of Transportation as 
well as shipping, port, and transportation representatives from all 
South Asian countries.
    I was also responsible for Orientation Visits bringing government 
officials and shipping industry representatives in 2005 from Morocco, 
Algeria, and Pakistan to New Jersey, Florida, Virginia, and Texas to 
learn about U.S. technologies and procedures for oil spill response and 
recovery. That same year we also held further ISPS Code training with 
the U.S. Coast Guard, in Tunisia for representatives from Algeria, 
Egypt, Jordan, Lebanon, Morocco, Oman, Tunisia, the United Arab 
Emirates, and Yemen.
    Recently, I worked with U.S. technical experts in developing and 
providing port security technical assistance regarding ISPS Code, 
Customs-Trade Partnership Against Terrorism, and Container Security 
Initiative compliance for the Moroccan Tangier-Med project, which 
encompasses a new deep-sea harbor and new container and cargo 
terminals. The concessionaire for the first container terminal is 
Maersk-Akwa, a joint venture with 90 percent ownership by the Maersk 
Group.
    In sum, throughout my 6 years at USTDA I have been actively 
involved in a wide variety of activities designed to address shipping 
industry needs, particularly with respect to increased security, 
safety, and supply chain efficiency. This experience has given me a 
clear understanding of the complexity of these issues and the 
importance of coordinated efforts among the many stakeholders, 
including carriers, shippers, customs and security officials, ports, 
consumers, and exporters. Melding effectively the economic, security, 
environmental, and safety needs inherent to the shipping industry is a 
challenging task, and, if confirmed, I look forward to working 
successfully with the shipping industry to facilitate fair, safe, and 
secure maritime transportation.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                             Carl B. Kress

    Question 1. Traditionally the Federal Maritime Commission's mandate 
has been fairly narrow--to consider only if transportation costs 
increase or transportation services decrease with any water-borne and 
port commerce proposal. But in the case of the Port of LA/Long Beach, 
it is no longer possible for the port to continue to grow without 
substantial environmental mitigation. I believe, as do many in 
California, that the Commission must now take into account a broader 
range of considerations when looking at port plans.
    Answer. Section 6(g) of the Shipping Act requires the Commission to 
evaluate agreements among marine terminal operators or ocean common 
carriers to determine whether they would be likely, by a reduction in 
competition, to produce an unreasonable reduction in transportation 
service or an unreasonable increase in transportation cost. As you 
point out, the port and shipping agreements that the Commission reviews 
encompass a range of important issues, not simply their impact on costs 
and service availability. I believe that the Commission's analysis of 
such agreements should take these broader issues, such as an 
agreement's potential impact on the environment, into account as a part 
of the Commission's analysis. Accordingly, I believe the appropriate 
question under section 6(g) is whether a reduction in service or 
increase in costs is reasonable, considering all of the relevant 
circumstances.

    Question 2. Do you feel the Federal Maritime Commission should 
consider new factors such as existing or potential environmental, 
safety and security risks when conducting an anti-trust analysis of a 
port plan to address emissions?
    Answer. Yes. I believe that the Commission can and should consider 
such factors in deciding whether an agreement to reduce emissions is 
reasonable under section 6(g) of the Shipping Act. I believe that in 
order to determine whether an agreement is substantially anti-
competitive under the Shipping Act, the Commission should take a broad 
approach that considers potential impacts on the environment, safety, 
and security, in addition to potential consequences for transportation 
service availability and cost.

    Question 3. Has the Federal Maritime Commission considered these 
factors in the past?
    Answer. The Commission previously evaluated an agreement by West 
Coast Marine Terminal Operators to implement PierPASS, a program that 
charges a fee to port users during peak hours to encourage more visits 
during off-peak hours, which I understand was aimed specifically at 
reducing congestion at the Ports and has been considered a success. 
Accordingly, given this explicit purpose, it is my understanding that 
the Commission considered the potential benefits under these factors in 
its determination that the increase in transportation costs due to the 
peak-hour fee was reasonable.

    Question 4. Do you agree the air quality situation in at the ports 
in California, particularly at the Ports of LA/Long Beach has reached a 
critical level in regards to public health?
    Answer. Yes. I experienced the air quality in Los Angeles first-
hand when I lived there for 3 years while attending law school, and 
have read reports describing the poor air quality in the region and how 
it poses a grave health risk to Southern California residents. I 
believe that improving air quality in the ports, and in the region as a 
whole, must be a key priority.

    Question 5. It is my understanding that recently, some of the 
shipping lines and the retail companies that ship through our ports 
filed objections to the efforts being undertaken in the state to 
develop a plan to control emissions on the basis of potential cost 
increases. What actions, if any, has the FMC taken at this time on 
those objections?
    Answer. No formal petitions or complaints have been filed with the 
Commission regarding the proposed Clean Trucks Program being considered 
by the Ports of Long Beach and Los Angeles. However, the Commission has 
received two letters--a joint letter from the Pacific Merchant Shipping 
Association and the National Industrial Transportation League, and a 
letter from the Intermodal Motor Carriers Conference--asserting that 
the program would violate certain provisions of the Shipping Act. Press 
reports indicate that the Commission has been closely following 
developments at the ports on these matters, and I see that the 
Commission held a closed meeting on November 28, 2007 to discuss the 
proposed Clean Trucks Program. It is my understanding that the two 
letters did not object to any plans by the State of California to 
reduce emissions, such as rules being considered by the California Air 
Resources Board to set emissions levels for all drayage trucks 
throughout California.

    Question 6. What role do you see for the FMC playing in the 
development and implementation of ports plan to reduce emissions at the 
Ports of LA/Long Beach?
    Answer. The Ports of Los Angeles and Long Beach have an agreement 
filed with the Commission that allows them to discuss ways to reduce 
port-related emissions under their Clean Air Action Plan. Under the 
Shipping Act, the Commission has an obligation to monitor activities 
under this agreement to ensure compliance with the Act. Additionally, 
because they are marine terminal operators, both ports are also 
required to comply with certain provisions of the Shipping Act even if 
they are acting separately. Therefore, the Commission has a role to 
play in determining whether actions by these ports, and any other 
marine terminal operators, are consistent with Shipping Act 
requirements. If confirmed, I look forward to working with all of the 
parties as they together strive to craft innovative approaches that 
address Southern California's needs with respect to emissions and 
congestion reduction.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
